<html>
<title> - HEARING FOR SECRETARY OF LABOR-DESIGNATE THOMAS E. PEREZ</title>
<body><pre>[Senate Hearing 113-686]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-686

        HEARING FOR SECRETARY OF LABOR-DESIGNATE THOMAS E. PEREZ

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

         NOMINATION OF THOMAS E. PEREZ TO BE SECRETARY OF LABOR

                               __________

                             APRIL 18, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-761 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland           LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont            RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania      JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina            RAND PAUL, Kentucky
AL FRANKEN, Minnesota                   ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado             PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island        LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin                MARK KIRK, Illinois      
CHRISTOPHER S. MURPHY, Connecticut      TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts        

                      Pamela Smith, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, APRIL 18, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     1
Cardin, Hon. Ben, a U.S. Senator from the State of Maryland......     2
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     6
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    20
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    22
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    24
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    27
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    29
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    32
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    34
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    36
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    37
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    39
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    41
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    43
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    44
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    46

                                Witness

Perez, Thomas E., Secretary-Designate, Department of Labor, 
  Takoma Park, MD................................................     7
    Prepared statement...........................................    10

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letters of support...........................................    49

                                 (iii)

  

 
        HEARING FOR SECRETARY OF LABOR-DESIGNATE THOMAS E. PEREZ

                              ----------                              


                        THURSDAY, APRIL 18, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Mikulski, Cardin, 
Murray, Sanders, Casey, Hagan, Franken, Whitehouse, Baldwin, 
Murphy, Burr, Isakson, Hatch, Roberts, Murkowski, Cardin and 
Scott.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Health, Education, Labor, and 
Pensions Committee will come to order.
    Today, we are meeting on a hearing for the confirmation of 
our Secretary of Labor-designate, Thomas E. Perez, to be the 
next Secretary of Labor.
    In order to start the process, I will first recognize our 
two distinguished colleagues from the State of Maryland for 
purposes of introduction. First I will recognize the senior 
Senator from the State of Maryland, Senator Mikulski.

                     Statement of Senator Mikulski

    Senator Mikulski. Good morning, Mr. Chairman.
    Thank you very much for the courtesy of allowing me, and 
Senator Cardin, to introduce one of Maryland's favorite sons, 
Tom Perez, to be the President's nominee to lead the Department 
of Labor.
    Mr. Perez has been the Assistant Attorney General for the 
United States, and has also been the Maryland Secretary of 
Labor and Licensing, and also was a member of the Montgomery 
County council. All three of these jobs show his expertise and 
his ability to navigate some very complex situations.
    We believe he is the right man for the job. Senator Cardin 
and I are here to advocate that the committee send forth his 
nomination for a full vote in the Senate, not only because he 
is one of Maryland's favorite sons, but because we believe he 
brings integrity, competency, and commitment to the mission of 
the agency.
    His resume is outstanding. A Harvard Law School graduate, 
he served in public service at the county and State levels, and 
he has the commitment to the mission of the agency.
    In terms of his own personal background, it is really the 
story of America. His father came to this country under very 
difficult circumstances. His grandfather was one of the leaders 
of the Voices of Freedom in the Dominican Republic, punished 
for that, declared a persona non grata, but his father was able 
to stay in this country as a legal immigrant, go into military 
service, and to become a physician. And to show his gratitude 
to the United States of America, worked only for the Veterans 
Administration serving the country that he felt saved him and 
his family.
    Tom grew up with public service in his DNA. His father died 
when he was a young boy, and he will tell that compelling 
narrative. But through the dint of hard work, a loving mother, 
and a Nation that offered opportunity, he was able to work his 
way through school, get the scholarships, worked even as a 
trash collector doing summer job, to be able to advance 
himself. He knows what the American Dream is, but he knows what 
hard work is, and he knows what an opportunity ladder we need 
to have in this country. But in addition to that, he brings a 
great deal of skill.
    We know Tom at the Montgomery County council level, where 
Government closest to the people had to really govern best, and 
it is a complex, growing county filled with how you had to work 
with public-private partnerships.
    I admire Tom so much for when he was head of the Maryland 
Department of Labor. It was there, working with the Maryland 
Chamber of Commerce, a Democrat, everyone thought, ``Oh, my 
God. What is this going to mean?'' They now have a letter in 
the record; the Maryland Chamber of Commerce is recommending 
Tom to be the Secretary of Labor. Why? Because he listens; 
second, he learns; third, he brings everybody to the table for 
a pragmatic, fair, and collaborative work.
    He has a wonderful family that I know he will introduce, 
but what he feels is that the Perez family belongs to the 
American family and he wants to give of his best. So let's give 
him the best shot of being confirmed as Secretary of Labor.
    The Chairman. Thank you very much, Senator Mikulski.
    Senator Cardin, welcome.

                      Statement of Senator Cardin

    Senator Cardin. Senator Harkin, thank you very much for the 
courtesy, and I very much appreciate this hearing. Senator 
Alexander, I appreciate the courtesy of being before the 
committee.
    I want to thank Tom Perez for his many years of public 
service. I want to thank him, and his family, for his 
willingness to continue to serve our country in this new 
challenge as Secretary of Labor.
    Mr. Chairman, I also want to acknowledge our colleagues 
that are here from the House, Congressman Cardenas and 
Congressman Lujan in support of Mr. Perez's nomination.
    As Senator Mikulski said, we are very proud of Tom Perez 
and his incredible record of service. We are proud that he is a 
Marylander. We are proud of what he has been able to accomplish 
in his career as Maryland's Secretary of the Department of 
Labor, Licensing, and Regulation.
    As Senator Mikulski pointed out, in that position, which is 
very comparable to the Secretary of Labor, he received the 
highest praise from the business community, the labor 
community, the consumer community, all felt that he was fair, 
open, and balanced in the manner in which he conducted the 
important responsibilities of that office at the State level.
    He also is a former Montgomery County councilperson, and 
for those of you who are familiar with Montgomery County, MD, 
you know there is probably no more difficult job than being a 
county councilman in Montgomery County, MD. He handled that 
position with incredible skill and judgment.
    He is a former staff advisor to our former colleague 
Senator Kennedy. So he understands the U.S. Senate. He 
understands the role that the administration, a cabinet-level 
position must maintain with the Congress of the United States.
    But I particularly want to talk about his responsibilities 
as Assistant Attorney General of the Civil Rights Division of 
the Department of Justice. I want to talk about that just for a 
moment because I had the opportunity to chair that confirmation 
hearing when he was appointed to that position, and as the 
Judiciary Committee vetted that nomination. He was ultimately 
approved by the Senate by 72 to 22 votes. So he has been 
through the vetting process. We know his background. We know 
his commitment to fairness.
    The interesting point here is he went into an extremely 
challenging position. We all know that the Civil Rights 
Division had major problems that were well-documented by 
independent studies, and Tom Perez has turned that around. He 
has an incredible record on behalf of restoring the integrity 
of the Civil Rights Division reversing a lot of serious 
problems. His record is clear of enforcing civil rights for all 
Americans.
    Let me mention a few of the record here: 194 human 
trafficking cases--that is a 40 percent increase; 141 
convictions of Federal hate crimes--74 percent increase.
    On the housing recoveries, which I am particularly proud 
about, predatory lending, I know Senator Isakson and I have 
worked on this to try to make sure that we have the proper 
balance here. I know what happened in my State of Maryland 
where people who were qualified for conventional loans were 
steered into high cost subprime products. As a result, they 
lost their homes; in many cases lost their savings.
    Well, Tom Perez was part of us getting Countrywide Finance 
to be responsible for the damage they have caused. The largest 
settlement in the history in this field, $335 million to 
230,000 victims, and he has a similar record on employment 
rights, and returning veterans--a 40 percent increase.
    He has received high praise from Democratic and Republican 
Governors in the manner in which he handled the comprehensive 
settlement under the ADA on disability rights. He has an 
impressive record of working together, getting things done, and 
bridging the gap between business and labor, protecting the 
rights of all Americans.
    I am very proud to support his confirmation as President 
Obama's choice to be Secretary of Labor.
    The Chairman. Thank you very much, Senator Cardin. And 
Senator Mikulski, thank you both for being here and for 
supporting this very well-qualified nominee. Thank you for your 
very strong statements.
    I know that you have other obligations to fulfill, Senator 
Cardin and Senator Mikulski, who is chair of our distinguished 
Appropriations Committee, but if that is not beckoning you, you 
could take your rightful place right here for the remainder of 
this hearing.
    Thank you both very much. Thanks, Ben.
    I understand Representative Cardenas and Representative 
Lujan are here. I also was told that Representative Roybal-
Allard and Representative Hinojosa are also here. If I missed 
any members of the House, I apologize, but thank you also for 
being here in support of this nominee.
    Let me add my voice to those of the two Senators from 
Maryland.
    As we have just heard, his life is the story of the 
American Dream. The child of immigrants from the Dominican 
Republic, he lost his father at a young age, and worked hard at 
a lot of jobs to put himself through school: warehouse worker, 
garbage collector, school dining halls. It is this kind of 
incredible work ethic that got him through with honors at 
Harvard and the Kennedy School of Government.
    With such an impressive resume, Tom Perez could have done 
pretty much anything with those degrees and accomplishments. He 
could have made a lot of money in the private sector, but 
instead, he chose to become a public servant, and has dedicated 
his career to ensuring that every American has the same 
opportunity that he had to pursue the American Dream.
    From his early days at the Department of Justice--where he 
helped prosecute racially motivated hate crimes, and chaired a 
taskforce to prevent worker exploitation; to his time at the 
Maryland Department of Labor that we just heard about from 
Senator Mikulski and Senator Cardin, where he helped struggling 
families avoid foreclosure and revamped the State's adult 
education system--Mr. Perez has demonstrated his unwavering 
commitment to building opportunities for all Americans. It is 
this commitment to building opportunity that makes Tom Perez an 
ideal choice for Secretary of Labor.
    Of all the executive agencies, it may be the Department of 
Labor that touches the lives of ordinary working Americans the 
most on a day-to-day basis. The Department of Labor ensures 
that every American receives a fair day's pay for a hard day's 
work, and they can come home safely from work at the end of the 
workday.
    It helps ensure that a working mother can stay home to bond 
with her newborn child and still have a job to return to. It 
helps workers who have been laid off, veterans returning from 
military service, and others who face special employment 
challenges to build new skills and better opportunities for the 
future.
    And, the Department of Labor helps guarantee that 
hardworking people who have saved all their lives for 
retirement can enjoy their golden years with security and peace 
of mind.
    As our country continues to move down the road to economic 
recovery, the work of the Department of Labor will become even 
more critical. The Department will play a vital role in 
determining what kind of recovery we have, a recovery that 
benefits only a select few, or one that rebuilds a strong 
American middle class, where everyone who works hard and plays 
by the rules can build a better life for themselves and their 
children.
    Now more than ever, we need a dynamic leader at the helm of 
the Department of Labor who will embrace a bold vision of 
shared prosperity, and help make that vision a reality for 
American families. I am confident that Thomas Perez is up to 
this challenge.
    His professional experience gives me confidence that he has 
the leadership skills, management experience, and policy 
expertise to be an effective Secretary of Labor. And he has 
what is perhaps the best credential to lead a labor agency, 
namely the fact that he has done it before in the State of 
Maryland.
    During his time as the Secretary of the Maryland Department 
of Labor, Licensing, and Regulation, he built a strong 
reputation as a consensus-builder. His outstanding work in 
Maryland has won him the support of the business community and 
worker advocates alike.
    It has been mentioned that he has the support of the 
Maryland Chamber of Commerce. I just want to quote from their 
letter to this committee. This is a quote from the Maryland 
Chamber of Commerce,

          ``Mr. Perez proved himself to be a pragmatic public 
        official who was willing to bring differing voices 
        together. The Maryland Chamber had the opportunity to 
        work with Mr. Perez on an array of issues of importance 
        to employers in Maryland, from unemployment and 
        workforce development to the housing and foreclosure 
        crisis.
          Despite differences of opinion, Mr. Perez was always 
        willing to allow all parties to be heard and we found 
        him to be fair and collaborative. I believe that our 
        experiences with him here in Maryland bode well for the 
        Nation.''

    But perhaps even more important than his professional 
background, Tom's personal background reassures me that he will 
lead with heart, with compassion, and with integrity. I know he 
has not forgotten what it is like to pick up garbage and to see 
the dignity in every aspect of every worker's lives.
    I know he has not forgotten what it is like to struggle for 
opportunities. I know he has a passion for fairness and 
justice, learned at the hand of his former employer--and this 
committee's former chairman, Senator Kennedy--that he will 
serve the Department of Labor and our entire country well in 
the years ahead.
    I have looked carefully, as the chairman of this committee, 
in fulfilling my obligations as the chairman, I have looked 
carefully into Mr. Perez's background and his record of 
service. I can assure this committee that Tom Perez has the 
strongest possible record of professional integrity, and that 
any allegations to the contrary are unfounded.
    I ask unanimous consent to include, in the record, 
approximately 25 letters of support for Mr. Perez's nomination 
from a bipartisan array of civil rights organizations, business 
organizations, labor organizations, and leaders in government 
and industry attesting to his leadership skills, policy 
expertise, professional integrity, and personal character.
    [The information referred to may be found in Additional 
Material.]
    The Chairman. As these letters and Mr. Perez's life time of 
service so abundantly illustrate, he is a visionary leader who 
will bring a breadth of knowledge and practical skills to the 
Department of Labor. The workers, businesses, and families that 
rely on the Department each and every day will be very 
fortunate to have Tom Perez at the helm.
    With that, I will now recognize our ranking member, Senator 
Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Perez, welcome and congratulations on your nomination.
    As Senator Harkin has said, the Department of Labor is a 
very important agency, with an extremely broad reach: job 
training programs, keeping workplaces safe from injury, fair 
employment practices, integrity of the Unemployment 
Compensation Trust Fund, vast enforcement powers, working with 
the President and us to find ways to help Americans get back to 
work at a time when 12 million people are unemployed.
    And among those responsibilities is the responsibility for 
protecting the rights of whistle blowers who report violations 
under 22 important statutes on topics from clean air to 
pipeline safety to Sarbanes-Oxley.
    Whistle blowers have been around a long time. They are 
protected by the False Claims Act, which started with President 
Lincoln. Senator Grassley amended it in 1986, led an effort to 
do that, and since 1986, use of the False Claims Act has 
returned $35 billion in taxpayer dollars by pursuing 8,500 
whistleblower claims. And in 90 percent of the cases where the 
Government joins in with the whistleblower, they win.
    That is why the allegations, which have been made in a 
report that was issued this week about Mr. Perez's interference 
with decisions not to intervene in a whistleblower case, are of 
concern.
    On April 15, the House Oversight Committee, the House 
Judiciary Committee, and Senator Grassley's staff released a 
report detailing, in their opinion, how Mr. Perez intervened 
with the Department of Housing and Urban Development, and with 
the Civil Division of the Department of Justice, and persuaded 
them to drop support for a whistleblower case.
    The case could have returned, so the report says, up to 
$200 million in misspent funds to the taxpayers. And in 
exchange for that, Mr. Perez, according to the report, helped 
to convince the city of St. Paul to drop a Supreme Court case 
that he feared would limit the application of the disparate 
impact theory, a legal theory that Mr. Perez admires. The 
report concluded that this was a quid pro quo between the 
Department of Justice and the city of St. Paul, engineered by 
Mr. Perez.
    The report said that in the whistleblower complaint, the 
Department of Justice gave up an opportunity to return as much 
as $200 million to taxpayers. The report said the consensus of 
the Federal Government to switch its recommendation, and to 
decline to intervene in the whistleblower case, was directly 
the result of Mr. Perez's intervention.
    Another report released in March 2013, by the Department of 
Justice Inspector General, found harassment of employees based 
on political views and a lack of professionalism among some 
division employees. So the House Oversight and Judiciary 
Committees, and Senator Grassley are still investigating these 
actions. They are still seeking some information.
    Mr. Perez, we met, and I will be asking you this when 
question time comes. There is an outstanding subpoena for e-
mails that the Oversight chairman and Senator Grassley believe 
has been complied with only partially.
    There are two witnesses from the Housing and Urban 
Development Department who can shed light on the St. Paul 
transaction, and they have not yet been made available for 
interviews to the House committees even though the request was 
made October 26.
    And then I have an outstanding request for copies of 
transcribed interviews, gathered during the Department of 
Justice Inspector General investigation that resulted in the 
March 12 report. All of these could be produced, I would hope, 
within a matter of a few days. All of them are essential to 
doing our job of advise and consent.
    I look forward to further questions, and an opportunity to 
ask Mr. Perez about these items.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Again, welcome, Mr. Perez. Your statement will be made a 
part of the record in its entirety. I would ask that you 
proceed as you so desire. Usually we allot 5 minutes, but in 
terms of nominees for the heads of agencies and departments, 
you can take up to 10 minutes, if you would like, to address 
the committee.
    Thank you, Mr. Perez.

  STATEMENT OF THOMAS E. PEREZ, B.A., M.P.P., J.D., SECRETARY-
        DESIGNATE, DEPARTMENT OF LABOR, TAKOMA PARK, MD

    Mr. Perez. Thank you, Mr. Chairman and Ranking Member 
Alexander, and other members of the committee.
    If I could first begin by introducing my family, I would 
welcome that privilege of doing so. This is my wife of almost 
25 years, Ann Marie Staudenmaier, who is a very accomplished 
public interest lawyer in her own right, and former Legal Aid 
lawyer. And I know the first African-American appointed to the 
bench in Tennessee by Senator Alexander was a former Legal Aid 
lawyer. So I appreciate your commitment to Legal Aid lawyers.
    And these are my three children. My oldest, Amalia, is a 
junior in high school. My middle child, Susana, is a ninth 
grader, and my little guy, Rafael, is a fifth grader, and they 
are honored to be here today.
    The Chairman. He looks like a big guy to me.
    [Laughter.]
    Mr. Perez. Yes. He is a big guy and it has been a privilege 
coaching all of the kids in various sports. He is a pretty good 
baseball player, not to mention soccer and a few other things. 
Thank you for your courtesy in allowing me to introduce my 
family.
    And thank you for the opportunity to appear today. I have 
had the pleasure of meeting with most of you, and hearing your 
ideas and suggestions about the Labor Department. I am eager to 
continue those conversations today and hopefully for the next 
several years, if I am confirmed by the full Senate.
    Thank you, Senator Mikulski and Senator Cardin for those 
kind introductions, and for your service to our beloved State 
of Maryland and to America.
    I am very deeply grateful to the President for the 
confidence he has shown in me with this nomination. I share the 
President's vision of a growing economy powered by a rising 
middle class, with ladders of opportunity available to everyone 
willing to climb them. The mission of the Department of Labor, 
now more than ever, is the mission of America.
    Let me also thank Secretary Hilda Solis for her commitment 
to workers and her stewardship of the Labor Department. Since 
her departure, Acting Secretary Seth Harris has led the 
Department with energy, expertise, and excellence. It would be 
an honor to build upon their legacy of great work.
    Before I continue, as I said before, I want to thank my 
family. They have been a rock for me. You cannot go into public 
service in the way I am if you don't have the whole family 
onboard. You all appreciate that, given the sacrifices that you 
make every single day, and my family has done the same, and I 
am most grateful.
    My family story is a quintessentially American story of 
immigrants looking for a better place to live, to raise 
children, and to access opportunities.
    My mother arrived here in the 1930s when her father was 
appointed Ambassador to the United States from the Dominican 
Republic. A few years later, my grandfather was declared non 
grata after speaking out against the dictator's human rights 
abuses.
    My father also fled the ruthless regime, came to America, 
fell in love with this Nation, served with distinction as a 
legal immigrant in the U.S. Army, got his U.S. citizenship the 
first day he was eligible, and followed his career in the U.S. 
Army by becoming a physician at the V.A. Hospital in Buffalo, 
NY. The weather was very similar in Buffalo to the Dominican 
Republic, as you can imagine, and that is what attracted my 
family to Buffalo, NY.
    My dad died when I was 12 and it left a deep, personal 
void, and also a financial strain for our family. But we pulled 
through and we pulled through because my mother was a rock, my 
four older siblings were always there for me, and we lived in a 
place like Buffalo where neighbors always looked after 
neighbors.
    I was also fortunate that the Federal Government invested 
in my future. With the help of Pell grants, work study jobs, 
and other scholarships, I was able to get a first class 
education that led to a career in public service. At the local 
level, as a member of the Montgomery County Council, at the 
State level with the Department of Labor, and at the Federal 
level as a career prosecutor, a Senate aide, and most recently, 
Assistant Attorney General for Civil Rights.
    While I am currently a political appointee in the Civil 
Rights Division, I spent the bulk of my 13-year tenure there as 
a career criminal prosecutor. I have had the privilege of 
working at the Department of Justice, Civil Rights Division, 
under four Presidents: Ronald Reagan, George Herbert Walker 
Bush, Bill Clinton, and now President Obama.
    So much of what the Division does is nuts and bolts law 
enforcement that may not make the headlines, but is critically 
important to making communities safer and ensuring a level 
playing field. From combating human trafficking and hate 
crimes, to protecting the rights of service members and people 
with disabilities, I am very proud of our accomplishments over 
the last 4 years.
    I had the privilege of working for Senator Edward Kennedy, 
whose bipartisan leadership of this committee together with 
Senators Alexander, Hatch, Enzi and so many others, made a 
difference in the lives of so many people.
    From Senator Kennedy, perhaps more importantly than any 
lesson, I learned the lesson that idealism and pragmatism are 
not mutually exclusive. Government works best when people of 
good faith come together, guided by conviction, but prepared to 
seek principled compromise for the good of the Nation. These 
are the principles that underlie Senator Enzi's 80/20 rule, and 
so many other statements of support for the notion of seeking 
common ground that I have heard on this committee and 
elsewhere.
    There is so much that unites us, and so much of it falls 
under the jurisdiction of the Department of Labor. I believe we 
can all agree on the need to create jobs and strengthen the 
middle class; to invest in human capital and to build a 
competitive workforce for our businesses to grow; to give 
everyone a chance to retire with dignity; to offer workers a 
fair wage and safe working conditions; and to find a place for 
our Nation's veterans in a civilian economy.
    At Secretary Solis's confirmation hearing in 2009, Senator 
Enzi said, ``The successful stewardship of the Department of 
Labor requires the ability to work constructively with many 
stakeholders.'' I could not agree more, and indeed, that has 
been the approach I have taken throughout my career.
    At the Department of Labor in Maryland, I am especially 
proud of our efforts to make our workforce more demand-driven, 
responsive to the needs of employers and workers alike. We made 
room for everyone around the table, and we embraced the input 
of everyone who had skin in the game.
    In all of these capacities, I have always tried to listen 
more than I talk. To approach contentious issues with an open 
mind and basic respect; to build broad coalitions of business 
leaders, labor unions, and others in pursuit of constructive 
solutions to tough problems, and I will continue to do so if 
confirmed.
    This year is the Labor Department's 100th Anniversary. In 
March 1913, the Department first opened its doors, in the words 
of its charter,

          ``To foster, promote, and develop the welfare of 
        working people, to improve their working conditions, 
        and to enhance their opportunity for profitable 
        employment.''

    Perhaps more than ever before, Americans are depending on 
the Department to continue to fulfill this historic and 
critical mission.
    Let me briefly discuss my thoughts about priorities for the 
Department, if I have the privilege of being confirmed.
    As our Nation continues to emerge from one of the worst 
recessions in our history, I see an opportunity to take the 
same collaborative and bipartisan approach I have applied 
throughout my career to reauthorize the Workforce Investment 
Act. I applaud the bipartisan efforts of this committee to 
reauthorize WIA, and I look forward, if confirmed, to working 
with you on this critical task.
    I learned many lessons about job creation and workforce 
development during my tenure in Maryland. Perhaps most 
importantly, businesses will always be the primary generator of 
good jobs, and we cannot have a strong economy unless industry 
is not just surviving, but thriving.
    At the same time, Government can be an active partner and a 
force-multiplier. The Department of Labor can work with key 
stakeholders to ensure that businesses have access to an agile 
and skilled workforce, and that the ladder of opportunity is 
available to any person wishing to maximize their own gifts and 
talents, and earn a decent living.
    The Department must also continue to perform its critical 
tasks of ensuring a safe and equal opportunity workplace. Job 
safety and job growth are not mutually exclusive; it is not 
necessary to choose between one or the other.
    Pension security is also an important Labor Department 
priority, as is the evenhanded enforcement of wage and hour 
laws. If an employer does not comply with overtime laws, or 
pays workers under the table, for instance, that employer is 
not simply violating the law and harming workers, but is also 
creating an unlevel playing field for the vast majority of 
employers who play by the rules.
    The President has asked all of us to consider three 
questions in all of the decisions we make: how do we make 
America a magnet for jobs? How do we equip our people with the 
skills they need to succeed in those jobs? And how do we ensure 
that an honest day's work leads to a decent living? These 
questions are at the core of the mission of the Department of 
Labor. And if confirmed, you have my word that I will keep them 
there.
    With that, let me once again thank the committee for your 
consideration of my nomination and for your unwavering courtesy 
throughout my visits with all of you.
    I look forward to your questions today and beyond. Thank 
you very much, Mr. Chairman.
    [The prepared statement of Mr. Perez follows:]
       Prepared Statement of Thomas E. Perez, B.A., M.P.P., J.D.,
                              introduction
    Good morning. Chairman Harkin, Ranking Member Alexander, and other 
members of the committee--thank you for this opportunity to testify 
today. I've had the pleasure in the last several weeks of meeting with 
most of you, hearing directly about your ideas and your priorities 
regarding the state of our economy, our workforce, and other challenges 
facing the Department of Labor. I am eager to continue those 
conversations today and hopefully for the next several years, as I will 
seek further counsel from all of you if I am confirmed by the full 
Senate.
    I want to thank my Senators, Senator Barbara Mikulski and Senator 
Ben Cardin, for those kind introductions and for their tireless work on 
behalf of our beloved State of Maryland.
    I'm deeply grateful to President Obama for the confidence he's 
shown in me with this nomination to be the U.S. Secretary of Labor. 
It's been a privilege to serve his Administration, and I hope to 
continue doing so in a new capacity. I share President Obama's vision 
of a growing economy powered by a rising middle class, with ladders of 
opportunity available to everyone willing to climb them. The Department 
of Labor plays a critical role in ensuring people have the skills to 
succeed in a 21st century economy, and that an honest day's work in a 
safe working environment leads to a decent living.
    I also want to thank Secretary Hilda Solis for her service, for her 
deep commitment to American workers and her stewardship of the Labor 
Department. Since her departure in January, the Department has been led 
with great energy and expertise by Acting Secretary Seth Harris. It 
would be an honor to take the baton from them and build on their legacy 
of excellent work. The mission of the Department of Labor, now more 
than ever, is the mission of America.
    Before I continue, I also want to thank my wife and my three 
children for their ever-present patience and support. A life dedicated 
to public service is only possible when everyone is onboard. Ann Marie 
Staudenmaier, my wife of almost 25 years and an accomplished public 
interest lawyer, and my children, Amalia, Susana and Rafael, have been 
my foundation on this incredible journey. I am eternally grateful for 
their sacrifice and partnership.
                   family: a legacy of public service
    Let me take a moment to introduce myself to you--to give you a 
window into my background and my personal history, and how I came to be 
here today.
    My family's story is similar to so many American stories--stories 
of immigrants looking for a better place to work, to raise children, to 
access opportunities. Both of my parents came to this country seeking 
refuge from a repressive regime in the Dominican Republic. My mother 
arrived in the 1930s when her father was appointed Ambassador to the 
United States, and then stayed after he was declared ``non grata'' for 
speaking out against the dictator following the brutal massacre of 
thousands of Haitians. My father fled the same ruthless regime later 
and came to this country seeking a better life. He developed an 
immediate and deep gratitude for the freedom he found here, and gave 
back by serving with distinction as a physician in the U.S. Army, 
followed by a career at the Veterans Administration hospital in 
Buffalo, NY. My father never got rich working at the VA hospital, but 
the non-monetary rewards were priceless. In my current job, we have 
dramatically expanded our work on behalf of servicemembers. Whenever I 
am working on these cases, I think of my father.
    My parents taught my four siblings and me to work hard, aim high, 
give back and to never forget our responsibility to help pave a path of 
opportunity for those less fortunate. They also taught us that 
education was the great equalizer--each of my four siblings would go on 
to become doctors.
    To grow up in Buffalo is to be part of a city that is remarkably 
resilient, and has seen its share of hard knocks. It's one of those 
places we can't ever afford to give up on, that we must lift up and 
help succeed in the 21st century economy.
    My father died suddenly when I was 12, leaving a deep personal void 
and also a financial strain on my mother and our family. But we pulled 
through in large part because my mother was a rock, my siblings always 
looked after their kid brother, and we lived in a place where neighbors 
looked after neighbors. There was no shortage of role models, mentors 
and support. I was fortunate to have a kind of surrogate dad--my best 
friend's father--a man of enormous character and wisdom. Though he 
never finished high school, he passed on to me the life lessons you 
don't find in a textbook, lessons about the dignity of work, and the 
importance of treating people fairly.
    I was also fortunate that the Federal Government invested in my 
future. With the help of Pell grants, work study jobs, and other 
scholarships, I was able to attend Brown University, Harvard Law 
School, and the Kennedy School of Government. My parents always taught 
us that to whom much is given, much is expected. With the support of my 
wife and family, I have been fortunate to dedicate my entire career to 
public service--at the local level as a member of the Montgomery County 
Council, at the State level as Maryland's Secretary of Labor, Licensing 
and Regulation, and at the Federal level as a career prosecutor, as an 
aide to the late Senator Edward Kennedy, and most recently as the 
Assistant Attorney General for Civil Rights.
  professional experience: collaboration, consensus-building, common 
                           sense and results
    While I am currently a political appointee in the Civil Rights 
Division of the Justice Department, I spent the bulk of my 13-year 
tenure there as a career criminal prosecutor. I have had the privilege 
of working under four Presidents--Ronald Reagan, George H.W. Bush, Bill 
Clinton, and now President Obama. One of my mentors and supporters is 
John Dunne, who served as Assistant Attorney General for Civil Rights 
under President George H.W. Bush, and who taught me so much about 
public service and the effective stewardship of the Division. He taught 
me that so much of what the Division does is nuts-and-bolts law 
enforcement that may not make the headlines, but is critically 
important in making communities safer and ensuring a level playing 
field.
    I am proud of the accomplishments of the Division. We have 
increased the number of human trafficking cases by 40 percent during 
the past 4 years, including a record number of prosecutions in 2012, 
and we dramatically stepped up our hate crimes enforcement.
    In the past 4 years, the Division has done more work on behalf of 
servicemembers than ever before. We recovered more than $50 million for 
servicemembers whose homes were improperly foreclosed on while they 
were deployed, and these recoveries go directly to the servicemembers. 
We have taken significant steps to ensure that military voters are able 
to vote and have their vote counted, and in the past 4 years, we 
increased the number of cases filed to protect the employment rights of 
servicemembers by 44 percent.
    Our work on behalf of people with disabilities in the past 4 years 
has been groundbreaking. We worked collaboratively with Governors in 
four States--Georgia, Virginia, North Carolina and Delaware (two 
Republican Governors and two Democrats) to expand opportunities for 
people with disabilities to live and thrive in their communities. I 
applaud the leadership of Governors McDonnell and Markell from Virginia 
and Delaware, respectively; and former Governors Sonny Perdue and 
Beverly Perdue of Georgia and North Carolina, respectively.
    In addition to enforcement, mediation, education, technical 
assistance and voluntary compliance are important components of our 
civil rights work as well.
    From 1995 to 1998, I had the opportunity to work for Senator Edward 
Kennedy, whose leadership of this committee in particular was 
responsible for so much bipartisan consensus that made a powerful 
difference in the lives of so many Americans. I learned so many lessons 
from Senator Kennedy, perhaps the most important of which was that 
idealism and pragmatism are not mutually exclusive. They are both 
critical ingredients in any recipe for sound policymaking. Government 
at all levels works best when men and women of good faith and integrity 
come together, guided by conviction but prepared to seek principled 
compromise for the sake of progress and the good of the country.
    These are the principles underlying Senator Enzi's ``80/20 rule'' 
and his success in working with Senator Kennedy. These are the 
principles that enabled Senators Kennedy and Hatch to forge bipartisan 
consensus on hate crimes, children's health insurance, and so many 
other important issues. We ought not make the perfect enemy of the very 
good. There is so much that unites us--Democrats and Republicans; 
President Obama and the Congress. And in fact so much of what unites us 
falls directly under the jurisdiction of the U.S. Department of Labor.
    I am confident that we can all agree on the critical need to create 
jobs to build a stronger middle class; we can all agree that we need to 
invest in human capital to build a skills infrastructure and a 
competitive workforce for our businesses to grow; we can all agree that 
everyone should have a chance to retire with dignity and a measure of 
economic security; we can all agree that workers deserve a fair wage 
and safe working conditions; we can all agree that we must find a place 
for our Nation's veterans in the civilian economy; we can all agree 
that historically marginalized populations, including people with 
disabilities, have so much to contribute and need to be brought into 
the economic mainstream.
    At the confirmation hearing for then-nominee Hilda Solis, then-
ranking member Enzi stated ``the successful stewardship of the 
Department of Labor requires the ability to work constructively with 
many stakeholders.'' I couldn't agree more. And indeed, it is that 
approach that I have taken throughout my career.
    As an elected member of the Montgomery County Council, I worked 
with people from both parties and stakeholders of all stripes--small 
businesses and developers as well as the civil rights community and 
many others.
    As Secretary of the Maryland Department of Labor, I focused on 
workforce development, workplace safety, wage enforcement, and 
unemployment insurance, among many other functions. I am especially 
proud of our work to re-engineer our State workforce system to make it 
more demand-driven, responsive to the needs of employers and workers 
alike. We made room for everyone around the table and embraced the 
input of everyone who had skin in the game--including businesses and 
community colleges, which are such a critical engine of workforce 
innovation.
    We were successful in Maryland because we abandoned the ``train and 
pray'' practice. It is wasteful and inefficient to provide workers with 
skills training and then pray that a suitable job exists. Instead, we 
must train people for jobs that we know exist, and forging industry 
partnerships enables us to match skills training with actual need. And 
we must measure our success by results and outcomes--did people get 
good jobs and did employers thrive?
    In all these capacities, I've always tried to listen more than I 
talk; to approach contentious issues with an open mind and basic 
respect; to build broad coalitions of business leaders, labor unions 
and others in pursuit of constructive solutions to tough problems, and 
to disagree without being disagreeable.
           dol: a steadfast mission amid a century of change
    This year, the Labor Department marks its 100th anniversary. In 
March 1913, the Department first opened its doors to--in the words of 
its charter--``foster, promote and develop the welfare of working 
people, to improve their working conditions, and to enhance their 
opportunities for profitable employment.'' Still today and in fact more 
than ever before, Americans are depending on the Department to continue 
to fulfill its historic mission. We read each month about the Nation's 
unemployment rate--but you and I know they are more than just numbers 
in the newspaper. They are single mothers trying to put food on the 
table, or young adults trying to break into the workforce. They are 
middle-aged, laid off workers trying to gain new skills for the modern 
economy, or returning veterans trying to take what they've learned 
protecting our Nation and put it to use here at home. They are people 
with disabilities, long-term unemployed and others all too frequently 
left behind.
    They are the backbone of our Nation, and they are the people who 
will populate our workforce and propel our Nation forward. A workforce 
development system must serve a dual mission--to help individuals gain 
the skills needed to build meaningful careers, and to help ensure those 
skills are the ones our employers needed to grow and thrive. We must 
have demand-driven workforce development strategies. Programs to train 
widget makers are useless if there is no demand in our economy for 
widgets. We must understand the needs of employers, not only today, but 
10 years down the road.
    As our Nation continues to emerge from one of the worst recessions 
in our history, I see an opportunity to take the same collaborative and 
bipartisan approach I have applied throughout my career to reauthorize 
the Workforce Investment Act. I applaud the bipartisan efforts of this 
committee to reauthorize WIA, and I look forward, if confirmed, to 
working with you on this important task. I learned many lessons about 
job creation and workforce development during my tenure in Maryland. 
Perhaps most importantly, businesses will always be the primary 
generator of good jobs, and we can't have a strong economy unless 
industry is not just surviving, but thriving.
    At the same time, government can be an active partner and a force-
multiplier. The Department of Labor can work with State and local 
partners, businesses, community colleges and other educators, workers, 
unions, and other key stakeholders to ensure that businesses have 
access to a strong, agile and skilled workforce, and the ladder of 
opportunity is open for any person wishing to maximize their own gifts 
and talents and earn a decent living.
    The Department must continue to perform its critical tasks of 
ensuring a safe and equal opportunity workplace. Job safety and job 
growth are not mutually exclusive, and it is not necessary to choose 
between jobs and job safety.
    Pension security is also an important Labor Department priority, as 
is the evenhanded enforcement of wage and hour laws. If an employer 
does not comply with overtime laws, or pays workers under the table, 
that employer is not simply violating the law and harming workers, but 
also creating an unlevel playing field for the vast majority of 
employers who play by the rules.
    I share President Obama's vision of a growing economy powered by a 
rising middle class, with ladders of opportunity available to everyone. 
The President has asked us all to consider three questions in all of 
the decisions we make: How do we make America a magnet for jobs? How do 
we equip our people with the skills they need to succeed in those jobs? 
And how do we ensure that an honest day's work leads to a decent 
living?
    These questions are at the core of the mission of the Department of 
Labor. If confirmed, I will keep them there.
    With that, let me once again thank the committee for your 
consideration of my nomination. I look forward to your questions.

    The Chairman. Thank you, Mr. Perez and welcome to your 
family also. I am glad they are also here today.
    We will now begin a round of questions.
    Mr. Perez, I am sure you will have many priorities when you 
get to the Department of Labor. But if you could just choose 
one, what would your very top priority be?
    Mr. Perez. Jobs, jobs, and jobs. I believe it is critically 
important to get Americans back to work and I believe the 
Department of Labor can play a critical role.
    As I mentioned before, the President asked those three 
questions, and one of them is, how do we equip our people with 
the skills necessary to get those jobs, those good paying jobs? 
And I believe that the Workforce Investment Act, for instance, 
presents a real opportunity for us to work in a bipartisan 
fashion so that we can build a workforce system that is truly 
demand-driven, and truly meets the needs of workers across the 
Nation.
    The Chairman. Well, I am hopeful we will get the Workforce 
Investment Act through, out of this committee, very shortly.
    Mr. Perez, concerns have been raised about the global 
resolution of two cases between the Justice Department and the 
city of St. Paul in cases called Magner and Newell. Now 
frankly, I am surprised by this. Lawyers make strategic 
judgments all the time about what cases should be appealed; and 
given the stakes in this matter, the importance of strong 
enforcement of the Fair Housing Act, I think it is clear the 
Department made the right call. I have gone through these cases 
with my staff. As a lawyer, along with lawyers trained on my 
staff, we went through every bit of that. I think the evidence 
clearly shows that you acted ethically and appropriately at all 
times. Nevertheless, I would like to ask a few questions to 
clarify what took place.
    First, isn't it true that applying the disparate impact 
principle, the Civil Rights Division under your leadership has 
reached settlements totaling over $600 million with lenders who 
violated the Fair Housing Act?
    Mr. Perez. Yes, sir.
    The Chairman. When you first reached out to the city of St. 
Paul to make sure the city was fully aware of the potential 
consequences of an adverse ruling from the Supreme Court, isn't 
it true that you were not aware of the Newell matter, and it 
was the city of St. Paul, not you, that first raised the 
possibility of linking the two cases?
    Mr. Perez. That's correct, sir.
    The Chairman. When the attorneys for the city brought up 
the Newell case and suggested linking the two, you and your 
staff consulted with both ethics and professional 
responsibility experts at the Department of Justice.
    What was their counsel?
    Mr. Perez. Their counsel was that because the United States 
is what is called a unitary actor that it would be permissible 
for one person to have discussions with the city on multiple 
issues, as long as the Civil Division approved, and as long as 
the Civil Division made all of the decisions relating to what 
became the Newell matter. And that's precisely what happened in 
this case.
    All decisions relating to the Newell matter were made by 
people in the Civil Division.
    The Chairman. Ultimately, the Department of Justice decided 
not to intervene in Newell.
    Now, to be clear, that decision was made by career 
attorneys and experts on the False Claims Act under the 
direction of Mr. Tony West, the Civil Division head. Mr. West 
retained the authority to make that decision, not you.
    Is that correct?
    Mr. Perez. That's correct, Mr. Chairman.
    The Chairman. While staff at Housing and Urban Development 
and the U.S. Attorney's Office initially recommended 
intervention, decisionmakers in those offices have said in 
transcribed interviews that they always viewed Newell as a 
close call.
    At the same time, the person who led the consideration of 
the case in the Civil Division was a very senior career 
attorney and expert on False Claims Act, a Mr. Mike Hertz.
    Do you know what Mr. Hertz's view of the Newell case was?
    Mr. Perez. Mr. Hertz was the Department's pre-eminent 
expert in the False Claims Act, and a senior attorney in the 
Civil Division. And after having met with the city, and heard 
their presentation, and reviewed the totality of the evidence 
in the case, it's my understanding that Mr. Hertz had a very 
immediate and visceral reaction that it was a weak case, and a 
weak candidate for intervention.
    The Chairman. At any time, did you pressure career or 
political staff at HUD, the U.S. Attorney's Office in 
Minnesota, or the Department of Justice regarding their 
decision concerning whether to intervene in Newell?
    Mr. Perez. Absolutely not, sir.
    The Chairman. Isn't it true that counsel for St. Paul 
wanted the Department of Justice to intervene in Newell and 
then move to dismiss it, thus killing the case against it, and 
that the Department of Justice, and you, adamantly rejected 
this offer? So Newell himself was still allowed to have his day 
in court. Is that true?
    Mr. Perez. That's correct, sir.
    The Chairman. And so, to summarize, St. Paul, not you, 
first raised the idea of linking the cases.
    You and your staff consulted with both ethics and 
professional responsibility experts at the Department of 
Justice.
    Those experts made clear that it was appropriate to advance 
a global resolution of the two cases as long as the Civil 
Division retained authority over the Newell matter, which it 
did at all times.
    Fourth, senior career Civil Division attorneys believed the 
Newell case lacked merit, and the lack of merit to that case 
was the primary reason for the Civil Division's decision not to 
intervene.
    And five, you agreed with the decision that the Department 
of Justice could not agree to the city's proposal to intervene 
and dismiss because it improperly foreclosed Mr. Newell's day 
in court.
    So again, based on these facts, Mr. Perez, I do not know 
what the controversy is. As I said, we have gone through this 
with a fine-tooth comb, with our lawyers, with our staff, and 
everything I can see is that you acted appropriately and 
ethically to advance the interests of the United States.
    I want to thank you for helping to clarify those issues in 
this line of questioning.
    Mr. Perez. Thank you, Mr. Chairman.
    The Chairman. I now yield to Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Perez----
    Mr. Perez. Good morning, Senator.
    Senator Alexander [continuing]. Welcome again, and welcome 
to your family. It reminds me of 22 years ago, I sat where you 
sat, and my family sat where they are sitting. I was nominated 
by the first President Bush to be the Education Secretary.
    Senator Metzenbaum from Ohio said to me, ``Governor 
Alexander, I've heard some very disturbing things about you.'' 
All the media was here. ``But I won't bring them up here.''
    [Laughter.]
    And Senator Kassebaum turned around to him and said, 
``Howard, I think you just did.'' You know, I mean, ``Why did 
you bring it up?''
    I won't do that to you. But I would like to go back over 
what Senator Harkin just went back over, and see if I can 
summarize it in this way, and give you a chance to explain it 
in however way you want to.
    You are the Assistant Attorney General for Civil Rights, 
not in the Civil Division, correct?
    Mr. Perez. That's correct, sir.
    Senator Alexander. And what you saw was a case headed, not 
just headed to the Supreme Court, but in the Supreme Court, 
which the Supreme Court had agreed to hear that you feared 
might limit the disparate impact theory of law, which you 
admire and rely on in many of your cases.
    That's correct, isn't it?
    Mr. Perez. It's a theory of law that every circuit that has 
ruled on it has ruled is a viable theory.
    Senator Alexander. But you were worried that the Supreme 
Court might limit it, were you not?
    Mr. Perez. Sure. I was. Bad facts make bad law, and I 
thought that this case was a poor vehicle for raising the broad 
issue of whether----
    Senator Alexander. You didn't want the Supreme Court to 
take the case. You thought it would be better if they didn't.
    Mr. Perez. I thought it was a poor vehicle for the Supreme 
Court to address the broad issue of the viability of disparate 
impact theory. And so I reached out to the city to make the 
point that in the vast majority of cases, the application of 
disparate impact theory actually works to the benefit of people 
that Mayor Coleman and others in the city are trying to serve.
    Senator Alexander. Yes, why is that your business?
    Mr. Perez. Oh, I think it's our business, sir, because it--
--
    Senator Alexander. And you are not party to the case, 
correct?
    Mr. Perez. There are a number of cases that we're not party 
to that----
    Senator Alexander. But you are not a party to that case.
    Mr. Perez. The Department, in Democratic and Republican 
administrations, files amicus briefs and has involvement in 
cases that they're not parties to.
    And in addition, Senator, with all due respect, the 
Department of Justice is really a guardian of the Fair Housing 
Act.
    Senator Alexander. The Department of Justice is a guardian 
of taxpayers as well, is it not?
    And wasn't it possible--under the case that you then helped 
to persuade the Civil Division to drop, or to decline to 
pursue--that the Department of Justice was unable to help get 
up to $200 million that might have been of benefit to the 
taxpayers?
    Mr. Perez. I totally agree with you that the Department of 
Justice is also an important guardian of the False Claims Act.
    And as I understand the statistics from the last 4 years, 
there have been $30 billion recovered since 1986 under the 
False Claims Act, $13 billion of which was recovered in the 
last 4 years, the largest 4-year period of recovery. The value 
to the United States of a losing case is zero.
    The judgment of Mr. Hertz, and the career people in the 
Civil Division, was that this case was a weak candidate for 
intervention and that--and in fact, when----
    Senator Alexander. I don't have but a minute and a half 
left. Let me finish my summary, and then I will give you a 
chance to respond, if I may, when that is through.
    Mr. Perez. Sure.
    Senator Alexander. Here is how it looks to me. You are in 
one division of the Department of Justice. You see St. Paul 
heading toward--in the Supreme Court with a case that you are 
afraid will produce the wrong result.
    And so you--to me, it is an extraordinary thing that you 
would then become involved with the city of St. Paul, with 
another division of the Department of Justice, and with the 
Department of Housing and Urban Development, which had 
originally recommended that the whistleblower case be taken by 
the Department of Justice.
    And the end result, after you are involved with all of 
this, is the Department of Justice declines to become involved 
in the whistleblower case.
    We know that 90 percent of the time when the Justice 
Department does get involved, the case succeeds. So it declines 
to become involved. The case does not collect the money. St. 
Paul agrees to withdraw the lawsuit that might produce the 
result you don't like.
    That seems to me to be an extraordinary amount of wheeling 
and dealing outside the normal responsibilities of the 
Assistant Attorney General for Civil Rights. It seems you have 
a duty to the Government to collect the money, a duty to 
protect the whistleblower who is kind of left hanging in the 
wind. And at the same time, it seems to me, that you are 
manipulating the legal process to try to get the result you 
want from the Supreme Court in a way that is inappropriate for 
the Assistant Attorney General of the United States.
    Mr. Perez. Senator, with all due respect, I would disagree, 
and note that the decisions made in this case were in the best 
interest of the United States.
    The senior career people in the Civil Division kicked the 
tires on this case. They looked at it very carefully. They made 
a very considered judgment that it was a weak case. They 
affirmatively rejected a request from the city of St. Paul to 
dismiss the case so that the relater would not have had his day 
in court. That decision preserved the relater's day in court 
and that relater was able to move forward.
    The judgment that it was a weak case was a judgment that 
was not made by Tom Perez. It was made by seasoned people in 
the Civil Division. And the first thing I did, as I noted 
earlier and as Chairman Harkin has noted, is that we received 
ethics and professional responsibility guidance.
    The U.S. Department of Justice does get involved in a lot 
of different things, and it was in the interest of justice, and 
it was entirely appropriate to do so in the opinion of our 
professional responsibility people and others. And I believe 
that the resolutions reached in this case were, in fact, in the 
interest of justice.
    Senator Alexander. Mr. Chairman, my time is expired.
    The Chairman. Thanks, Senator.
    I will also keep noting that Mr. Newell, in fact, did have 
his day in court, and it was the court that dismissed the case.
    Mr. Perez. That's correct, sir.
    The Chairman. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    Mr. Perez, I know that in this confirmation hearing and 
throughout the process, there will be a couple of these cases 
that come up. I believe my colleague, Senator Cardin, who is a 
lawyer, addressed these. I believe the questions that just 
occurred, both Senator Harkin and Senator Alexander, hopefully 
will deal with this.
    But Mr. Perez, you are here to be the Secretary of Labor. 
You're not up to be the Attorney General of the United States. 
You're not up for a judicial appointment, yet. Who knows what 
the future will hold.
    Mr. Perez. Appreciate your confidence, Senator.
    Senator Mikulski. But the President wants you to do this 
job now and this job now is the Secretary of Labor, where while 
we are talking about reducing the public debt, we have another, 
enormous deficit, and that is called the jobs deficit. Your 
priority was jobs, jobs, jobs, jobs.
    I will come back to my introduction, which was to emphasize 
the partnerships that you formed at the Maryland Department of 
Labor. When you took that job, business took a deep breath. 
They thought are you a lefty Democrat from a very blue county, 
Montgomery; from Tacoma Park where you live, which is known as 
a community of grassroots activists, which we dearly love. So 
they wondered about you.
    For this confirmation hearing, they have written a letter 
of endorsement about you. Tell me what you did at the 
Department of Labor that helped with our job creation. And 
remember, as you know, Maryland is several counties: a robust 
corridor; but the end of manufacturing, the struggles in our 
mountain counties which has an Appalachian demography; the 
Eastern Shore which again, jobs are leaving.
    So tell me what you did to work in public-private 
partnerships or how you implemented the Workforce Reinvestment 
Act where we have lots of government, we have lots of community 
colleges, but we were looking for lots of outcomes. Tell us 
what you actually did do so that we see what is the prelude 
when you were a secretary of labor at a State level, not when 
you were an attorney general.
    Mr. Perez. Senator, I listened. I traveled around the 
State. My car currently has 193,000 miles on it, much of which 
came from my tenure at the Department of Labor, Licensing, and 
Regulation.
    I learned a lot through those travels and through those 
listening tours. And what I learned was that our system was 
fragmented. It wasn't serving the needs of business, and it 
wasn't serving the needs of workers who wanted to up-skill and 
get a decent job so they could feed their family. I learned 
that we could do better.
    So what we did was a rather dramatic re-engineering of how 
we deliver workforce services. And it was premised on the 
following principles.
    No. 1, it needed to be demand-driven. You can't have a 
training program to make widgets if there's no demand for 
widget-makers. We listened to employers.
    We built a big table. We had all the stakeholders around 
the table, whether it was----
    Senator Mikulski. What does the word ``stakeholder'' mean? 
I hear it so much, it gets on my nerves. What does stakeholder 
mean?
    Mr. Perez. It means we listened to all people who had skin 
in the game. It means employers.
    It means community colleges who are the engine of 
innovation around this country. They can act deftly, as you 
well know, to create jobs so that Wor-Wic Community College--
when there was demand for--they needed truck drivers who had a 
Commercial Driver's License, CDL. Ray Hoy out there creates a 
program so you can get a certificate and get a good paying job.
    We listened to businesses. We listened to educators. We 
listened to learners describe the challenges they have, and so 
many people are struggling to make ends meet.
    So in that sector strategy approach, understanding what the 
manufacturing sector needed, understanding what the health care 
sector needed, understanding what the hospitality sector 
needed, we were able, then, to devise a program. And we were 
able to integrate the program and align it better, adult 
education, workforce development----
    Senator Mikulski. Well, where there was conflict, because 
you heard the same things I heard, Government doesn't listen. 
They want one-size-fits-all regs. They ask too much of the 
smaller businesses, et cetera.
    How did you handle that?
    Mr. Perez. We communicated. We made sure we understood 
every perspective. And you know far better than I will ever 
know, the challenges confronting people in Garrett County, MD 
and the western part of the State is different from the 
challenges on the Eastern Shore of Maryland, are different from 
Baltimore City or Prince George's County.
    By communicating and coming together, we recognized that 
you can't have a one-size-fits-all solution to workforce 
development. You need----
    Senator Mikulski. How would you implement this, then, as 
Secretary of Labor?
    Mr. Perez. I would take the same approach process-wise. 
Making sure we have all the stakeholders around the table. I 
would make sure that whatever approaches we take are demand-
driven because our system works best when we are responding to 
the needs of businesses.
    We knew, talking to Johns Hopkins Hospital, how many 
phlebotomists they thought they might need, how many physician 
assistants, and then you build programs around that.
    It is demand-driven: listening to sectors, listening to 
workers, people who want to upscale and devising those programs 
that are truly integrated so that they work for businesses and 
workers alike.
    Senator Mikulski. Well, if you can do that at the 
Department of Labor with all of the other things that will be 
coming your way.
    For example, should we pass immigration reform, which I 
hope we will? You will be one of the prime implementers of 
that, and so on. If you can bring that approach, I think, the 
committee, on a bipartisan basis, would have great confidence 
in that.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Perez. Thank you, Senator.
    The Chairman. Thank you, Senator Mikulski.
    In order now, that I have would be: Senator Isakson, 
Senator Murphy, Senator Scott, Senator Baldwin, Senator 
Roberts, Senator Sanders, Senator Burr, Senator Franken, and 
Senator Whitehouse.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Perez, thank you for today and thank you for our 
meeting a couple of days ago.
    Mr. Perez. Thank you, Senator. I very much enjoyed it.
    Senator Isakson. I want to go back to the St. Paul issue 
because it's been said that that is an issue when you were at 
DOJ. You are now talking about being Secretary of Labor to kind 
of dismiss the value of that decision or people's opinions of 
that decision that you made one way or another.
    But I want to point out, Senator Murray and I, and I think 
now Senator Casey and I, Casey is the chairman, I am the 
ranking member of the committee that oversees OSHA, MSHA, 
community safety, Chemical Safety Board, and all the 
enforcement agencies over business and the people that comply 
by rules of the Government. So it is very important to 
understand the theory about which you might apply to the 
administration of those laws.
    So I want to ask you a couple of questions. I want to read 
a quote that was in this morning's ``Wall Street Journal'' and, 
first of all, make sure it is an accurate quote and give you a 
chance to tell me that. And the quote is,

          ``I was concerned because I thought that the Magner 
        was an undesirable factual context in which to consider 
        disparate impact. And because bad facts make bad law, 
        this could've resulted in a decision that undermined 
        our ability and the city of St. Paul's ability to 
        protect victims of housing and lending 
        discrimination.''

    Is that an accurate quote?
    Mr. Perez. Yes, sir. It is.
    Senator Isakson. OK. You have indicated disparate impact is 
a theory.
    Is that correct?
    Mr. Perez. Disparate impact is both a theory that has been 
accepted by every circuit in the country that's ruled on it, 
and every circuit but one has done so.
    And disparate impact is a theory that helps, for instance, 
the 80-year-old woman from Baltimore City who had a 714 credit 
rating and impeccable credit credentials who was steered into a 
subprime product and unnecessarily so. Disparate impact is 
about helping real people like that 80-year-old African-
American from Baltimore City.
    Senator Isakson. Don't run the clock on me, because I 
wanted to finish.
    Mr. Perez. No, I didn't mean to, sir.
    Senator Isakson. OK. Is a fact an absolute?
    Mr. Perez. I'm not sure I understand your question.
    Senator Isakson. Is a fact an absolute? I mean, when 
somebody states a fact and you determine the fact is correct, 
is that an absolute? Disparate impact is an accepted theory. Is 
a fact an accepted truth?
    Mr. Perez. Again, you apply the facts to the law in any 
case that you would have. And so whether disparate impact 
applies will depend on the application of the facts to the 
case.
    In the Magner case, for instance, I didn't think disparate 
impact applied because they didn't meet the threshold 
requirements.
    Senator Isakson. OK. My point is this, if you want to apply 
theory for enforcement either in the Civil Rights Division of 
the U.S. Department of Justice or as the Secretary of Labor, it 
is very important to understand from whence you come.
    Because there are, for example, when MSHA goes in a mine in 
West Virginia, or a mine in Georgia, a service mine in Georgia, 
or a mine in the West, and they find one incremental violation 
and take it to apply to a theory to then bring the hammer down 
on a business that the facts don't think they should have 
happened. That is an overactive enforcement of regulatory law.
    That's why this disparate impact, that's why this Magner 
case, that's why it is so important in St. Paul because it 
depends on--if you have a theory that you want to justify with 
facts, and you pick the facts to justify it, or don't determine 
you can find the facts to justify it, then that is not running 
a department, in my way of thinking, as a way it should be run.
    And in this quote, where you said, ``There was an 
undesirable factual context in which to consider disparate 
impact,'' that means the facts didn't support the theory in 
that case. And that is a subjective determination about how the 
facts would line up against a theory. And I think that is an 
overreach in terms of what a secretary of a department in the 
U.S. Department of Labor should do.
    Mr. Perez. Senator, if confirmed, I will apply the facts to 
the law.
    In the Magner case, my assessment and the Department's 
assessment is that applying the facts to the law, they weren't 
entitled to the protections of disparate impact.
    In the Mine Safety and Occupational Safety and Health, you 
have my word that if confirmed, we will conduct fair analyses. 
We will conduct fair investigations and we will listen and 
learn from all the stakeholders throughout those 
investigations.
    Senator Isakson. Very quickly before I run out of time, you 
said the President told you, and you acknowledge in your 
testimony, that the most important thing is jobs for Americans.
    Is that correct?
    Mr. Perez. Jobs is a top priority for this Nation.
    Senator Isakson. And empowering the middle class, correct?
    Mr. Perez. Yes, sir.
    Senator Isakson. And we have already talked about this in 
our private meeting; I want to just make it public because this 
is such an important issue with me.
    The previous Department of Labor, under which you were not 
working, tried to bring forth a fiduciary rule which, if it had 
been implemented, would severely have impacted the ability for 
a middle-class American to seek out and get advice on saving 
for their future, planning for their own retirement. You and I 
talked about this in our meeting.
    I want you, in this meeting, to tell me that you will do 
everything you can to not perpetrate a rule regarding 
investment in savings and retirement on employees that would 
restrict the right for an average American, a middle-class 
American, to get objective advice because of the termination of 
a fiduciary rule that changes and drives those people out of 
business.
    Mr. Perez. I remember our conversation, Senator, and I 
think we have a shared interest in ensuring retirement 
security. And I mentioned to you, and I've had this 
conversation with others, that if confirmed, I certainly want 
to listen and learn more about the concerns.
    And by the way, there have been concerns that have been 
expressed by Republicans and Democrats alike, and I look 
forward to listening and learning, if confirmed, from you and 
others about the particulars, because we want to make sure that 
we hear all the voices, and do our best to appreciate that.
    Senator Isakson. Thank you.
    My time is up, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Perez. Good morning, Senator.
    Senator Murphy. Good afternoon. Good morning. I thought you 
were an extremely well-qualified nominee to begin with before 
this hearing, but as the proud husband of a Legal Aid lawyer, I 
have new reason to admire your service and your family's 
service. My wife's work surrounds standing up for the civil 
rights of disabled children in school systems, and so I 
particularly appreciate the work of the Division on Educational 
Rights.
    It is perfectly within the realm of the duties of the 
Attorney General's Office to try to make sure the Supreme Court 
has the right case before it to decide a controversial issue.
    I would just like to put into the record something that 
Senator Harkin referenced, which was your correspondence with 
the Civil Rights Division's ethics officer in which you very 
plainly said a question and very plainly got a response back.
    The response back that you received was,

          ``You asked me whether there was an ethics concern 
        with your involvement in settling a Fair Lending Act 
        challenge in St. Paul that would include an agreement 
        by the Government not to interfere in a False Claims 
        Act involving St. Paul. Having reviewed the standards 
        of ethical conduct and related sources, there is no 
        ethics rule implicated by the situation and therefore 
        no prohibition against your proposed course of 
        action.''

    I would like this in the record.
    Now I would like to get back to what we really should be 
talking about here which, as Senator Mikulski said, is job 
creation. That's why you are here. It is to help our 
constituents get back to work, and I would hope that that would 
be the focus of this hearing.
    So I want to talk about what I consider to be one of the 
most important programs that you are going to be overseeing, 
one that's had a little bit of trouble recently, and one that 
you will be charged with getting back on its feet, and that is 
the Job Corps program.
    The Job Corps program is one of the most successful 
programs of the agency. It takes kids off the streets who are 
in dire circumstances, gets them into a program that gets them 
a GED, gets them job skills. And the program that we run in 
Hartford gets nearly two-thirds of those kids back employed in 
the workforce. It's run into some trouble recently.
    I wanted to pose the question to you to understand your 
commitment to that program, and your commitment to making sure 
that we don't have any more situations as we have had with 
these programs, in which we have to do enrollment freezes, and 
keep kids out of a program that has been transformational to 
the lives of a lot of the most at-risk kids in our communities.
    Mr. Perez. I totally agree, Senator, that the program has 
been transformational across this country. And I further agree 
that the Department of Labor can, must, and will do better.
    The issues that came up, and I've had this discussion in 
almost all of my meetings with Senators about this Job Corps 
issue. I have said to everyone that you have my absolute 
commitment, that if confirmed, making sure the Job Corps is 
firing on all cylinders will be a top priority.
    There are three things that need to be done: 
accountability, making sure we have accountability for systems 
in place. Procurement, making sure that when the procurement 
systems are in place, that they are working effectively.
    Then also, making sure we're measuring outcomes. We don't 
simply want to measure the number of people that have gone 
through the program. We want to measure what the program has 
done for them, and we want to do that effectively so that we 
can demonstrate that the taxpayer is getting a return on 
investment.
    Senator Murphy. I appreciate that. You've got clear 
measurements here that we can monitor. We know exactly how many 
kids get job placements. We know exactly how many get 
certificates or degrees. And so as stewards of the taxpayer 
dollar, we certainly appreciate that that will be a big part of 
your advocacy.
    I hope that just for the last remaining minute, you could 
talk a little bit more about the work that you did in Maryland 
to try to essentially connect employers with the job skills 
that they need. I think we have done a particularly bad job of 
that in this country.
    I talk to factories over, and over, and over again in 
Connecticut who tell me that they continue to have job 
openings, but can't find anybody to do it.
    We seem to just have a fundamental disconnect between the 
training institutions, our institutions of higher education, 
and especially a lot of the smaller and medium-sized employers. 
Big employers do maybe get in and run a training program, but 
the small- and medium-sized employers, the small factories that 
make up the industrial belt of Connecticut have a hard time 
getting the workers that they need.
    From their perspective, can you talk a little bit about how 
we can make sure that those smaller guys have the training 
programs in the communities that they need?
    Mr. Perez. Right. I totally agree. We can and must do 
better in terms of building a workforce system that's agile, 
responsive to the needs of large employers and small employers 
alike, and that's what we tried to do in Maryland.
    One of the biggest things we did was to combine adult 
education and workforce development. As you know, at a Federal 
level, the workforce development is run at DOL; adult education 
is run at the Department of Education. We found that to be 
unwieldy at a State level and so, we combined the forces 
because there's an overlap between the populations that you're 
serving.
    And by bringing them together, we're better able to meet 
the needs of small- and medium-sized employers where we can ask 
them, ``What do you need?'' and then we can devise programs 
that are better suited to meeting those particular job demands.
    Senator Murphy. Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, sir.
    Mr. Perez. Good morning, Senator. Thank you for meeting 
with me on such a busy day yesterday.
    Senator Scott. Absolutely. Enjoyed it very much. We both 
served on county councils, so I know that we both----
    Mr. Perez. Rubber hits the road.
    Senator Scott [continuing]. Understand that we have to get 
things done.
    I know that you said during our meeting that you would 
spend your first 100 days or so doing a listening tour, 
understanding that the No. 1 priority in our country is jobs, 
jobs, and jobs. That you would spend the first 100 days 
listening to those of us around the table here, other Senators, 
Members of Congress, as well as people within your Department.
    Do you plan to honor that commitment?
    Mr. Perez. Absolutely, sir.
    Senator Scott. Excellent. Thank you very much.
    One of the things that I have heard said about you 
consistently here, which is really good news from a perspective 
that you are fair, and balanced, and open.
    And I will tell you that my State has really experienced 
very little fairness, and openness, and a balanced approach 
from different agencies and departments within the Federal 
Government and that gives me reason to pause.
    So, my questions are more about your management style and 
what we can expect out of you going forward because we have 
great concerns when we look back at things like the NLRB that 
we discussed yesterday. I understand that it's not in your--
would not be in your purview, but you have had an impact on my 
State as well.
    When we think about the case of the NLRB v. Boeing, one of 
the things that we did not experience as South Carolinians was 
an open environment, fairness, or anything that looked like a 
balanced approach to figuring out the direction of the NLRB.
    It seemed to us that without any question, that the NLRB 
made a decision to eliminate, destroy, take away 6,000 jobs 
from our State. Without any question, they were willing to 
destroy a $1 billion investment in South Carolina. And they 
were absolutely looking to pick winners and losers.
    And there are two cases that come to mind from my 
perspective as a South Carolinian that I question your 
management style going forward that comes out of the Department 
of Justice. And it goes to the heart of what seemed to be a 
politically charged environment that seems to lead to cases and 
directions in the DOJ.
    The Inspector General said, without any question highly 
critical, that the politically charged atmosphere and 
polarizing--with polarization within the voting section 
increases backlog request in voting section. And the 
dysfunctional management chain under your leadership also 
states that the voting sections handling the New Black Panther 
case under you risked undermining confidence in the non-
ideological enforcement of the voting rights laws.
    So what we experienced, of course, through those voting--
voter's I.D. case was something that was akin to that 
management style that we find distasteful. It gives me great 
concern as I think of the comments of the Inspector General, as 
well as the experience that we've had.
    Now, we all understand that South Carolina has been treated 
unfairly in many ways as it relates to the voting rights law. 
We look at the fact that in our delegation, when the case was 
brought against our voter I.D. law, that one-third, one-third 
of the congressional delegation of South Carolina were African-
Americans, highest percentage in the country, I believe.
    Their overall delegation today is still at 22 percent, the 
highest diversity, from an African-American perspective, in the 
country outside of Georgia, puts us No. 2.
    What we experienced was in a place where 90 percent of 
African-American voters, 91.6 percent of white voters had valid 
I.D.'s already. That in nine other States where three States 
were pre-cleared; six did not have to go through the process 
that your Department decided to challenge our voter's case, 
voter's I.D. case.
    We find that the cost to our State, $3.5 million, we find 
that alarming as I look at your management style. It seems to 
have a political perspective, a political bias in the 
management style that seems not to be open, and not to be 
balanced, and certainly not to be fair.
    As we went through the case, it seems that even at the end 
of the case when the ruling was in our favor as a State, only 
we had to spend $3.5 million, but in January 2013, the DOJ 
shows up once again and even after losing that case, it seems 
like the political vitriol was so high that they decided to 
come to Branchville. You guys came to Branchville, SC, 
population 800 people.
    And you spent thousands of dollars looking at the voting 
procedures as it relates to our voter I.D. law and without any 
question, we had already won the case. And yet even in spite of 
the victory we won in courts, the DOJ comes back to our State 
with a political bias from my perspective, to take a look at a 
very small 200-person turnout case.
    My question is: is there, in fact, the ability to have a 
open, balanced, fair approach in the Department of Labor when, 
in fact, it seems like to me, it so consistently has been a 
politically charged environment in the Department of Justice?
    Mr. Perez. Senator, I have always adopted a management 
style that is open, inclusive, that recruits the right people, 
gives them the authority to move forward, and applies the facts 
to the law in an evenhanded fashion. So I respectfully disagree 
with your characterization of what we have done.
    I would note in connection with the New Black Panther Party 
matter that you referred, not one but two different entities, 
the Office of Professional Responsibility and the Office of the 
Inspector General----
    Senator Scott. As to the voter's I.D. case, how would you 
look at the three States that were pre-cleared without any 
question? New Hampshire's law is very similar to ours.
    Mr. Perez. Senator, we did pre-clear New Hampshire and we 
did pre-clear Virginia.
    Senator Scott. But not ours.
    Mr. Perez. Let me quote from the decision of the court in 
the South Carolina matter which--and this was an opinion 
written by Judge Bates an appointee of----
    Senator Scott. The decision was, in fact, in the favor of 
South Carolina. So since we are out of time my only question to 
you is can we expect a more open, a more fair, and a more 
balanced approach from you as the head of the Department of 
Labor?
    Mr. Perez. Sir, I believe that I have been always open and 
fair, and I will continue to do so, and I will----
    Senator Scott. We would of course disagree with you--so we 
can or cannot expect a more open, fair, and balanced approach?
    Mr. Perez. You will always have a person who has an open 
and balanced approach. And I will continue to apply the facts 
to the law, and I will continue to do so----
    Senator Scott. If we can--we are out of time. So the fact 
of the matter is the facts of the law led to the conclusion 
that South Carolina's voter I.D. law was, in fact, legal. That 
our approach to that law was fine.
    The fact that you came in afterwards in January 2013 to 
take a second look at something that had already been decided, 
but the fact of the matter the--that the statement that you had 
made.
    The fact of the matter is that South Carolina has been a 
State on the fast track to creating racial parity, on the fast 
track to making sure that all of our citizens have an 
opportunity to participate in the process of voting. And I just 
want to make sure that your approach at the DOL will be one 
that is fair, open, and in fact, balanced.
    Mr. Perez. And as the court managed to----
    Senator Scott. My time. I am done. Thank you very much.
    Mr. Perez. Senator, I just wanted to quote from the court 
opinion in the South Carolina case because the question was 
whether our actions there were appropriate.
    This is the court opinion written by Judge Bates, an 
appointee of President George W. Bush who said,

          ``To State the obvious, the Act passed by South 
        Carolina as now pre-cleared, is not the Act enacted in 
        May 2011. It is understandable that the Attorney 
        General of the United States would raise serious 
        concerns about South Carolina's voter photo I.D. law as 
        it then stood.''

    That's not Tom Perez speaking. That's the opinion of the 
court in the voter I.D. case.
    And there's every expectation after you reach an agreement 
that you will go and conduct monitoring. We do that in every 
case in which we reach an agreement, and that's why we were 
there in January.
    Senator Scott. Mr. Perez, I am looking forward to having 
the opportunity to see a fair, balanced approach come to our 
State and that is one of the reasons why I took very seriously 
the Inspector General's comment as it relates to a politically 
charged atmosphere and polarization within the voting section.
    Thank you.
    Mr. Perez. Thank you for your time, sir. And again, thank 
you for meeting with me.
    The Chairman. Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman and Ranking Member 
Alexander for holding this important hearing.
    And thank you----
    Mr. Perez. Thank you, Senator.
    Senator Baldwin [continuing]. Mr. Perez, for being here. I 
have to say, it was wonderful to hear about your youth in New 
York and your adulthood in Maryland. I have to say you got 
special extra credit points for a Wisconsin connection even if 
it's through marriage.
    Mr. Perez. That's right. Got married in Milwaukee.
    Senator Baldwin. Yes, indeed. I also, in a serious vein, 
want to thank you for your public service for many years.
    I believe that you will be a very strong advocate for 
workers. Not only have you been a strong advocate for a strong 
workforce, I have confidence in your ability to assist our 
country in its economic recovery.
    We have heard a lot about it already this morning, the 
numerous experts from across the political spectrum who have 
stated that the workforce faces a large skills gap. And we 
certainly live in the 21st century, and we need to prepare our 
workforce for a 21st century economy.
    So once confirmed, I look forward to working with you on 
these challenges to ensure that the Department of Labor is 
using all of its available resources to close those skills gap, 
and to lower the unemployment rate.
    You've already entertained a couple of questions on the 
skills gap. I am not going to repeat those, but only note this 
to emphasize my very strong interest in this issue as it 
concerns my home State of Wisconsin.
    A couple of questions for you, though. While our economy is 
continuing to recovery, one troubling spot is the stagnant 
wages in our country. According to a recent article in ``The 
New York Times,'' wages have fallen to a record low as a share 
of America's Gross Domestic Product. Wages have been on the 
slide or stagnant since 2001.
    I would say in my home State of Wisconsin over a similar 
time period, worker compensation in its totality has not even 
come close to keeping pace with the sizable increase in worker 
productivity.
    What will you do to promote better wages for the American 
workforce?
    Mr. Perez. That's a critically important question, and as I 
noted in my opening remarks, it's one of the critical questions 
that the President is asking every single day. How do we make 
sure that hard work, the dignity of work, pays off in a decent 
living?
    The most important family value, I think, or one of the 
most important is the value of time with your family. And I 
have spent so much time with so many people working two, three 
jobs because they can't make ends meet.
    The American Dream is always about making sure that the 
next generation does better than the preceding generation. And 
the ladder of opportunity, the rungs are seeming further and 
further between for all too many people trying to climb that 
ladder of opportunity.
    That's why I think we need to come back to the demand-
driven, agile approach that is really, got to be the linchpin 
of a workforce development strategy. Understanding what we 
need. Understanding what the business community, who are the 
job creators, need; understanding the specific challenges 
confronting workers.
    In Washington State, when I was meeting with Senator 
Murray, we were talking about a very innovative program there 
that brings together both adult basic education training along 
with the workforce training. So that by the end of the program, 
you've developed those basic skills, but you've also developed 
the specific skills necessary to be a phlebotomist, or whatever 
that job is.
    The more that we can develop those agile systems that are 
truly responsive to employer needs, and worker demands, the 
better we can do.
    Senator Baldwin. Thank you. I was just visiting northern 
Wisconsin Technical College, Nicolet College, that is doing 
that same embedding of the basic skills----
    Mr. Perez. Right.
    Senator Baldwin [continuing]. In their training, workforce 
training. I have limited time left.
    I want to have you address the growing unemployment problem 
for persons with disabilities. I think it's extremely important 
to make sure we're doing all we can to support all Americans 
including those who have a disability.
    Can you tell me a little bit about how, under your 
leadership, the Department of Labor would work to decrease 
unemployment for persons with disabilities?
    Mr. Perez. I so appreciate that question because we have 
spent so much time in this job and when I was with the State of 
Maryland increasing opportunities for people with disabilities. 
And I know Chairman Harkin, this is in his DNA as much as 
anyone across this country.
    I was the lunch speaker at an event recently in Maryland 
sponsored by the Maryland Chamber that was honoring employers 
who are doing so much work in the disability context. Much of 
this is understanding the needs of people with disabilities, 
and I think we can do much more.
    How many people do you meet who say, ``I want to be a 
taxpayer. I want to pay more taxes.'' Part of the challenge is 
making sure that we understand some of the barriers: 
transportation.
    For instance, there are a number of employers in Maryland 
who enable people to work from home. Well, why not hire 
somebody with a disability? You can save the commuting time and 
you will find that you have a remarkable employee.
    There are so many. We are doing a number of cases right now 
working with States to ensure that people with disabilities can 
get jobs that pay a decent wage. We're working with the State 
of Oregon, for instance, on this issue. We're working with 
another State on this issue.
    I think the Department of Labor and the Department of 
Justice can be critical players. But the Department of Health 
and Human Services has to be at the table because we want to 
make sure, for instance, that if they are on Medicaid or some 
other form of benefit that enables them to get health 
insurance, that getting a job isn't a Pyrrhic victory. You get 
your job, but you lose your health care.
    That's why we need to bring everybody around who has skin 
in the game in the Government to the table. I think we can do 
it, but the unemployment rate for people with disabilities is 
unacceptably high, and unnecessarily so.
    Senator Baldwin. Thank you.
    The Chairman. I certainly agree with that. In our next 
round, I will have a certain question about that.
    Senator Roberts.
    Mr. Perez. Good morning, sir.

                      Statement of Senator Roberts

    Senator Roberts. Good morning. How are you, Tom?
    Mr. Perez. I'm doing very well, Senator. Thank you for your 
courtesy.
    Senator Roberts. Tell your son to stay loose at the plate 
and choke off on the bat.
    Mr. Perez. Thank you. He had three triples his first game.
    Senator Roberts. That's good advice for you too, sir, if 
you are confirmed Secretary of Labor.
    You have indicated the President's comment and you agree 
with this philosophy, how do we make America a magnet for jobs? 
How do we equip our people with the skills they need to succeed 
in those jobs? And how do we ensure an honest day's work leads 
to a decent living? It is the ``we'' part of it that causes me 
some concern, not a lot of concern, but some concern.
    I suggest with some temerity that every American should 
have the opportunity and freedom to climb the ladder of success 
to achieve the American Dream; their American Dream. And 
nothing manmade or Government-made will stand in their way. It 
is the Government that I am worried about in terms of over-
regulation, regulations that don't make sense.
    Regulations that the President has indicated in his 
Executive order 13563 and he said,

          ``A review of regs currently on the books to 
        determine if they are obsolete, and necessary, and 
        justified, excessively burdensome, counterproductive, 
        or duplicative of other Federal programs.''

    And the President said, ``Some of them are just plain 
dumb.''
    I had a very good conversation with the President last 
week. He indicated that he thought every agency was doing just 
that. My understanding is that the Department that you expect 
to head or hope to head has put forth a plan--they needed to 
put forth a plan 2 years ago, because this was a 2011 Executive 
order--but to put forth a plan to comply with the Executive 
order.
    How do you propose to ensure compliance with this Executive 
order? I think the obvious answer is just to say, ``Yes, I will 
comply with it,'' and we can get onto other things, but.
    Mr. Perez. Yes, I will comply with it.
    Senator Roberts. Thank you.
    Mr. Perez. And I will do so by listening to you and others 
to hear your specific----
    Senator Roberts. Do you know any regulation on the books 
within the Department of Labor that would fit this description? 
Or do you think that every regulation that the Department has 
issued to date and that you are proposing, is fine and dandy?
    Mr. Perez. I would want to take a very careful look and I 
take the Executive order seriously.
    Senator Roberts. Good. That's the answer I want. I want you 
to take a very careful look. And the reason I want to have you 
take a careful look, after an awful lot of letters from those 
who are privileged to represent farmers and ranchers, both 
House and Senate. Thousands of public comments from farm 
families when we could have a comment period in regard to a 
regulation, as opposed to an interim final rule, or an 
Executive order, or sub-regulatory guidance, all of which have 
led to the deluge of regulations that are causing problems out 
there in America, and that affects jobs big time.
    But we wrote a lot of letters and a lot of folks in rural 
communities wrote a lot of letters, Youth in Agriculture, 
Educational Leadership, folks like the 4-H, and the FFA. The 
Department of Labor finally went through the proposed rule on 
so-called child labor regulations with the promise that such a 
far-reaching rule would not be pursued for the duration of this 
administration.
    Should you be confirmed through the Senate, do you plan to 
uphold that promise? And the answer is yes.
    Mr. Perez. I look forward, certainly, to learning more 
about that issue. I have been just getting up to speed on that, 
and I would certainly honor----
    Senator Roberts. Well, now----
    Mr. Perez [continuing]. Whatever commitments have been made 
previously.
    Senator Roberts [continuing]. We have just gone through a 
whole situation with the Senator from South Carolina. All I 
need is a yes----
    Mr. Perez. OK.
    Senator Roberts [continuing]. As a promise that would not--
--
    Mr. Perez. Sir----
    Senator Roberts [continuing]. Put forth this Katrina of 
regulations in regards to agriculture.
    Mr. Perez. Senator, just to be clear, it's my understanding 
that DOL withdrew the rule and it's my further understanding 
that there is no intention to pursue the rule.
    Senator Roberts. Right. Good answer. Let me just say that 
the traditional regulatory process described in the 
Administrative Procedure Act, and statute, and Executive order, 
calls for notice comment 60 days before any of these 
regulations are put out.
    But as I have indicated, we are now into a new world of 
sub-regulatory guidance. Agency after agency goes through 
things where you have to get on their Web site, and then you 
have an e-mail, or a bulletin, or FAQ's, Frequently Asked 
Questions.
    Mr. Perez. Asked questions.
    Senator Roberts. I love that acronym. And then the 
aggrieved party, be it a small business, be it in agriculture, 
be it in health care, now I could just go down the line. They 
are not even aware of it.
    I am very hopeful if approved, you will commit to ensuring 
that this traditional 60 days? And then if something is wrong 
and somebody suggest to you that we can tweak this, we can 
change it, or maybe even get rid of it, that they will have 
another 60 days to comment.
    So we have this transparency and we have the opportunity 
for people to comment on any regulation that you would propose.
    Mr. Perez. I'm a strong believer in transparency and you 
certainly have my commitment, if confirmed, that we will follow 
all of the protocols so that we can ensure that every voice is 
heard in a reasonable way.
    Senator Roberts. Thank you, Mr. Perez. Thank you.
    The Chairman. Thank you, Senator.
    I want to inform Senators, there are two votes starting at 
noon, they are both 10 minute votes. One of them is the 
amendment that Senator Alexander and I have, but if we each 
take 5 minutes, we will run 5 minutes over. So I hate to say 
this, but I am going to try to keep people to 5 minutes.
    Senator Sanders is next.

                      Statement of Senator Sanders

    Senator Sanders. Thank you very much, Mr. Chairman, and 
welcome----
    Mr. Perez. Good morning, sir.
    Senator Sanders [continuing]. Mr. Perez. Let me just start 
off. I want to get to the work that we hope that you will be 
doing as Secretary of Labor.
    But getting back to the Civil Rights Division, there has 
been some suggestion that you have not done your job in 
bringing revenue into the Federal Government. That you may have 
quote-
unquote ``lost'' the Government some $200 million.
    My understanding that in terms of the disparate impact 
theory, you have brought in many, many hundreds of millions of 
dollars to the Federal Government from companies like 
Countrywide, or Wells Fargo who have, in fact, discriminated 
against African-Americans and Hispanics.
    Can you talk a little bit about the money that the Civil 
Rights Division has, in fact, brought in, in the combat--as we 
combat racial discrimination?
    Mr. Perez. The money that we've recovered, and we recovered 
more money in 2012 in the fair lending context under the Fair 
Housing Act than in the previous 23 years combined. That money 
goes to victims and communities directly.
    Similarly, Senator, and I know you care deeply about this 
as chair of the Veteran's Committee, we have done more work on 
behalf of service members than ever before. We've recovered 
over $50 million on behalf of service members who were 
wrongfully foreclosed.
    They're deployed in Iraq. They sustain an injury, and 
meanwhile at home, they've been wrongfully foreclosed on. So 
we've recovered more than $50 million going directly to the 
service member.
    Senator Sanders. Thank you very much for that. But in other 
words, you have been aggressive in protecting the citizens of 
our country in terms of justice and fair remuneration.
    Mr. Perez. I believe we've been fair and aggressive.
    Senator Sanders. Let me ask you another question, which 
doesn't get a lot of attention. One of the least sexy divisions 
of the Department of Labor is the Bureau of Labor Statistics.
    Now, why is that important? It is an important division 
because we cannot do our job unless we have a good, factual 
understanding of, in fact, the State of the economy among other 
things.
    If you go to the front pages of newspapers today, they will 
tell us that unemployment is 7.6 percent. On the other hand, 
within the Department of Labor, you have another index called 
the U6, which tells us that if you look at people who have 
given up looking for work and people who are working part-time 
when they want to work full-time, real unemployment today is 
somewhere around 13.8 percent, which puts us at a very 
different situation: 7.6 is bad, 13.8 is horrendous. It might 
lead us to take some more bolder action in terms of job 
creation.
    Why in your judgment and what can you do about putting more 
emphasis into the U6 definition of unemployment rather than 
what we currently use?
    Mr. Perez. Unemployment is unacceptably high regardless of 
what metric you use, and we need to take every step possible to 
address that.
    In addition, Senator, the number of people, labor force 
participation is at one of the lowest levels. That's another 
important statistic that----
    Senator Sanders. Right.
    Mr. Perez [continuing]. And we want to look at all of them 
and figure out an effective strategy.
    Senator Sanders. Which the current metric does not take 
into consideration. I mean, would you agree with me that 7.6 
unemployment is a conservative statement of unemployment in 
America?
    Mr. Perez. 7.6 percent doesn't take into account 
discouraged workers, for instance.
    Senator Sanders. Right.
    Mr. Perez. So in that sense it understates the unemployment 
rate, which is why we have to make sure that we work for 
everyone.
    Senator Sanders. We all believe in creating jobs, but I 
also want to make sure that the American people have a sense of 
the reality of the economy.
    Could you pledge to me that you will work with me and 
others to make sure that the information that comes out of the 
Department of Labor, in fact, more truly indicates the State of 
the economy?
    Mr. Perez. I look forward to working with you and everyone 
on the committee, if confirmed, to talk, tell the story of 
what's happening, and to work collaboratively to identify 
solutions.
    Senator Sanders. All right. Very briefly, I think from 
Maryland, you are familiar with a concept called the Genuine 
Progress Indicator, GPI.
    Mr. Perez. Yes.
    Senator Sanders. Does it ring a bell?
    Mr. Perez. Yes.
    Senator Sanders. One of the concerns that I have is when we 
talk about GDP, Gross Domestic Product, people say, ``Well, we 
have to get it up.'' Yes, I guess we do, but it really doesn't 
mean much for the average person if all of the new income goes 
to the people on top.
    Over a recent 3-year period, 100 percent of all new income 
went to the top 1 percent; the bottom 99 percent got nothing.
    Will you work with me under the concept of a Genuine 
Progress Indicator which tries to measure how the economy is, 
in fact, doing for the average person dealing with real wages, 
dealing with distribution of wealth and income?
    I think we need more information from the BLS so that we 
can, as policymakers and the American people, get a real 
understanding of what is going on in the economy, so we can 
come up with policy to address the problems.
    Does the concept of the Genuine Progress Indicator passed 
in Maryland and in Vermont interest you, something you want to 
work with me on?
    Mr. Perez. I look forward to working with you, Senator.
    Senator Sanders. All right. Thank you.
    The Chairman. Senator Burr.
    Mr. Perez. Good morning, sir. Thank you for meeting with me 
yesterday.

                       Statement of Senator Burr

    Senator Burr. Thank you. I welcome you, and I welcome your 
family, and encourage your son: do not take batting tips from 
Senator Roberts.
    [Laughter.]
    But you could probably look at him and tell that.
    As we discussed yesterday, I told you I am going to go a 
little bit historical and I will go a little bit forward. So 
permit me, if I can.
    Mr. Perez, there have been some reviews of the e-mails that 
you sent out of the Justice Department. I am not here to 
discuss whether they happened in personal accounts or in 
official accounts. But let me read two incidents to you and 
then get you to comment.
    In one e-mail, a reporter from ``The New York Times'' asked 
you about how he should advise his colleagues as to when the 
Department would announce a consent decree with the city of New 
Orleans, LA.
    You responded, and I quote from that e-mail, ``I would 
advise him to be there by noon on Tuesday. I would further 
advise him to give me a call if he wants. Attorney General will 
be there to make announcements.'' The announcement was made by 
Secretary Holder on that day, the 24th of July.
    In another e-mail to the same ``New York Times'' reporter 
about the settlement, the Department settlement with the 
Countrywide Financial Corporation in December 2011, you again 
appeared to provide nonpublic information.
    The e-mail said, ``Just closed deal 15 minutes ago. Will 
announce tomorrow at 3 p.m.'' This is to a ``New York Times'' 
reporter and, again, I am not trying to distinguish between 
personal e-mails and official e-mails. There is a reason that 
most things are operated through official e-mail.
    But is it appropriate and ethical to release nonpublic 
information, especially when that information could move equity 
markets?
    Mr. Perez. Senator, I'd need to look at the whole context 
of the e-mails that you're referring to. In connection with 
both those cases, we reached agreements. We announced those 
agreements in a very transparent way, and those agreements----
    Senator Burr. The quotes that I have----
    Mr. Perez [continuing]. Were good agreements.
    Senator Burr [continuing]. The quotes that I have given 
you, and I am primarily focused on the second one, was there 
had been no public release of the decision. And you made a 
release to a ``New York Times'' reporter of a decision where 
the public statement would be at 3 p.m. the next day on 
Countrywide Financial, which, as we know, could have an impact 
on Bank of America, since they were the owner, of the price of 
equities.
    Mr. Perez. Senator----
    Senator Burr. Is that appropriate and is it ethical?
    Mr. Perez. Again, my recollection of that situation, and I 
don't have all the e-mails in front of me that you reference, 
and there are many of them, is that there was--there was 
efforts by the press office to announce generally that the 
public announcement----
    Senator Burr. Do you regularly share----
    Mr. Perez [continuing]. Was going to occur the next day, 
so.
    Senator Burr [continuing]. Do you regularly share nonpublic 
information with reporters?
    Mr. Perez. I don't believe, sir, that that was nonpublic 
information is what I'm saying is that the notice had gone 
out----
    Senator Burr. Your own, your own e-mail said, ``Will 
announce tomorrow, 3 o'clock.''
    Mr. Perez. Right. And, and as you know, media advisories 
often go out the day before, and my recollection, if I'm 
correct, is that that was 4 days before Christmas and so----
    Senator Burr. I'll ask you to look----
    Mr. Perez. OK.
    Senator Burr [continuing]. I will ask you to look back at 
that and----
    Mr. Perez. I'd be happy to look back at it----
    Senator Burr. All right.
    Mr. Perez [continuing]. But my recollection is that the 
press people had been sending out notice to folks that there 
was going to be this announcement the next day.
    Senator Burr. Mr. Perez, the recent cliff extension of 
additional Federal unemployment benefits included a provision 
that was referred to a clause of non-reduction, and it forbids 
States from making certain benefit modifications to their 
plans.
    Does the non-reduction clause, in fact, cause a benefit 
reduction should a State modify its plan?
    Mr. Perez. Senator, my understanding is that, if I think I 
understand the context, is that as a result of changes that 
were made in the North Carolina legislature to the provision of 
unemployment benefits, that triggered the provisions that you 
referred to.
    Senator Burr. Right.
    Mr. Perez. And it's my understanding from talking to folks 
at the Department of Labor that the Department had no choice in 
making that decision because that's what the----
    Senator Burr [continuing]. You're exactly right. The 
Secretary at the time sat there and said, ``We have no 
flexibility.''
    Yet in the Middle Class Tax Relief and Jobs Act of 2012 we, 
in fact, gave flexibility for a short period of time and closed 
the window. So some States got waivers, some States didn't get 
waivers.
    My question is very clear. One, is it fair? And two, 
doesn't the clause non-reduction mean that if a State modifies 
in any way, shape, or form their plan, they actually lose 
everything that was participated, so the effects of it is that 
the individuals lose their benefits?
    Mr. Perez. Again, Senator, my understanding is that it was 
the Department's conclusion that they had no flexibility there. 
I would certainly look forward----
    Senator Burr. Would you like flexibility for the non-
reduction clause?
    Mr. Perez. Again, I spent time in a disability case working 
with the North Carolina legislature that we talked about. And I 
certainly would look forward to meeting with you and with them 
to perhaps persuade them that if their laws were changed that 
perhaps there might be a different impact on what's happening 
at a Federal level.
    Senator Burr. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    First, I want to thank you, Mr. Perez for your public 
service.
    Mr. Perez. Thank you, Senator.
    Senator Franken. You have dedicated your life to making 
people's lives better. Under your leadership at the Civil 
Rights Division, thousands of individuals with disabilities are 
now receiving services. And the rights of our service members 
and veterans are better protected when they return home.
    In Maryland, when we had our discussion, we talked about 
reauthorizing. We talked about workforce boards. We talked 
about bringing 2-year colleges, community colleges and 
technical colleges together with business, and with labor, and 
with workforce boards. I am very impressed by your work 
improving Maryland's job training programs.
    Last year, the committee heard testimony from public-
private partnerships that were successful. We had four 
workforce boards who were the 2-year colleges, technical and 
community colleges that worked with local industries.
    I recently heard from one of these partnerships at a 
roundtable in Minnesota--this is what we are doing in Minnesota 
now--was a roundtable in Rochester, MN. They are developing a 
program called CTEC, which will serve as a hands-on learning 
center for 
K-12, community colleges, and Doug Community College in 
Rochester, and State university students to learn the skills 
needed by in-demand industries, to fill these skills gap that 
we talked about.
    What did you do to successfully engage the business 
community in Maryland? What can the Labor Department do to 
encourage more successful public-private partnership?
    Mr. Perez. We engaged in sector strategy, sir. We brought 
together, for instance, the manufacturing sector, the 
hospitality sectors, the health care sector, the biotech 
sector. We would bring in the manufacturing sector, for 
instance, large employers, medium-sized employers, smaller 
employers.
    We would bring them together with community colleges, other 
key stakeholders because as you correctly identify, most of the 
jobs we're talking about are these middle skill jobs, high 
school-plus, a certificate program.
    And we're able to come up with a very good assessment of 
what is the demand, because we need--we can't train and pray. 
You know, you don't do a training program and pray that there's 
a job out there for the skill you now have. You should only 
train for programs that you know are going to produce a job. 
That should be the goal.
    We engaged the business community in that way and so we 
could come up with those plans, and we could build and align an 
integrated system that worked.
    Senator Franken. I could use all my time to talk about 
that, and I would love to, and I enjoyed our conversation about 
that because I think it is so important.
    But I want to move on to these Taft-Hartley health plans, 
which is, these are health plans that have been negotiated by 
unions with multiple employers. I had one of those when I was 
in the Writer's Guild. We writers work with multiple employers 
and they have been an important part of our Nation's model of 
employer-sponsored health insurance.
    They are particularly important because they allow workers 
who move frequently from one employer to another each year, 
such as in construction and mining and service industries, they 
allow these workers to have continuous supportable coverage for 
themselves and their families.
    The ACA, the health reform law, will help many small 
businesses to better afford insurance for their employees. But 
as we implement this law, we must take into account what is 
already working, and these Taft-Hartley plans are working. I 
have repeatedly asked this administration to work with unions 
in Minnesota to protect Taft-Hartley plans through the 
implementation of health reform.
    If confirmed, how would you work with unions and with your 
colleagues in the Department of Health and Human Services, and 
Treasury to protect the working families who depend on Taft-
Hartley plans for affordable, continuous health insurance?
    Mr. Perez. Senator, I would welcome the opportunity if 
confirmed to work with you to travel to Minnesota to understand 
the issues firsthand.
    A good friend of mine now runs the workforce system in 
Minnesota, so we could double dip and have the discussions 
about workforce.
    But this issue, I have heard a number of times, and I 
appreciate the importance of it, and I look forward to learning 
more about it, so that we can find a way to make sure that we 
address the concerns that you've outlined.
    Senator Franken. Thank you so much.
    Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    Senator Murkowski.

                     Statement of Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Perez. Good morning, Senator.
    Senator Murkowski. Good morning, welcome.
    Mr. Perez. Thank you for meeting with me the other day.
    Senator Murkowski. Thank you. I appreciated the 
conversation.
    I understand that prior to my arrival here, you responded 
to a question from Senator Murphy as it related to the Job 
Corps program.
    Mr. Perez. I did.
    Senator Murkowski. We discussed it briefly in my office, 
and I understand that you intend to kind of report back as to 
the status of the Job Corps program, and how we are going to 
deal with this.
    I think I pointed out that we have seen some great benefits 
in the State of Alaska. I've got some issues. We currently have 
a wait list of about 300 at our local Job Corps center. I want 
to figure out how we're going to deal with the wait list.
    I also understand that in the recently released budget, the 
President's budget increases administrative expenses for 
Federal staff salaries while reducing the operation expenses 
for the Federal contractors who actually operate the Job Corps. 
I am concerned about that aspect of it. So I would like you to, 
as you are reporting back, address that as well.
    And then a final thing on Job Corps is the definition of 
homeless, because within the Job Corps, the program provides 
opportunities for our homeless teens. And it is my 
understanding that the definition includes students that are 
living in uninhabitable conditions or staying in a shelter.
    This, we found in Alaska, is very limiting in terms of how 
we define. It may not be that you are living in a shelter. It 
may not be that the teen is in an ``uninhabitable'' situation. 
But I would like to have you look at that definition so that it 
is not so narrowly defined.
    We had a situation in Alaska where it was the definition 
alone that really prevented the Corps from assisting a homeless 
teen who just kind of fell in between the cracks there. And I 
think that we can, perhaps, improve on that. So I would ask you 
to look at that as well when you are looking at the Job Corps 
issues as a whole.
    I wanted to ask you this morning about the H-2B visa 
program. As I mentioned, this is an important program in the 
State of Alaska. It is one way that we are able to address the 
needs of our seafood processors, a very seasonal business, a 
very intense season there. And we need some help addressing it.
    I have had some concerns regarding the impact of the recent 
Federal rulings on the Department of Labor to continue to 
process the H-2B visas. These processing companies really need 
some quick action by the Department to ensure that as this 
upcoming season approaches that they are able to respond.
    It is my understanding that the Department has indicated 
that it will proceed with issuing the labor certifications for 
a small number of employers including those that are using the 
private surveys, private wage surveys.
    But my question to you, I guess, my hope or the assurance 
that you are going to give me is that you will commit that the 
Department will continue to move ahead expeditiously. We need 
fast action here with the processing of these H-2B visas.
    Mr. Perez. Senator, as to the second question on H-2B, you 
certainly have my commitment that we will work as expeditiously 
as possible, if confirmed. Every year, I would have 
conversations, when I was Labor Secretary, with Senator 
Mikulski----
    Senator Murkowski. Right.
    Mr. Perez [continuing]. And Senator Cardin.
    Senator Murkowski. Same situation.
    Mr. Perez. Same situation, and so I am very familiar with 
the situation, and I recognize that justice delayed can often 
be justice denied. And so, you certainly have my commitment.
    As to Job Corps, I have a vivid memory of our conversation 
and the importance of Job Corps in Alaska, and failure is not 
an option. And you have my commitment that we will address the 
issues of accountability. We will address the issues of making 
sure that procurement systems are working. And equally 
importantly, we will address the issue of outcomes, making sure 
that people are not only trained, but are able to succeed after 
they're trained.
    Senator Murkowski. Appreciate that.
    And then just a reference to the wage rule, following the 
promulgation of the rule in 2011 about the increased labor 
costs for employers that utilize the H-2B's, as a wage rule 
methodology, and then there is this comprehensive rule. The 
wage rule was supposed to go into effect in fiscal year 2012, 
the comprehensive rule in fiscal year 2013.
    Mr. Perez. Right.
    Senator Murkowski. We have had a bipartisan group of 
Senators that supported the language in the Appropriations bill 
to delay that wage rule. A bipartisan group supported an across 
the board freeze of both rules for industries.
    So the question to you is whether or not you will respect 
the bipartisan congressional concerns that have been expressed 
in both the Appropriations bill as well as the letter that has 
been out there?
    Mr. Perez. Yes, Senator, I certainly look forward to 
working with you on that, and making sure that we're consistent 
with all of the commitments that we've made.
    Senator Murkowski. Appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    The vote, they told us they would hold the vote open until 
12:20. If we each take 5 minutes, we can gavel it by 12:10, 
which would be the chair's intent.
    Now we will go to Senator Whitehouse, Senator Hatch, 
Senator Murray, Senator Hagen.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Welcome, Mr. Perez, and thank you for 
your willingness to continue your service.
    I am a fellow veteran of the Department of Justice, and so 
I am keenly aware of the mess that you inherited in the 
Judiciary Committee--we got a pretty unfortunate look at; just 
to sort of recap some of the points.
    An earlier I.G. inspection found, and I quote, ``numerous 
career voting section employees engaged in highly inappropriate 
and hostile conduct toward other career section employees.''
    Another I.G. report noted that the then-predecessor of 
yours, Mr. Schlozman,

          ``Favored applicants with conservative political or 
        ideological affiliations and disfavored applicants with 
        civil rights or human rights experience, whom he 
        considered to be overly liberal.''

    The report showed that he refused to even show his section 
chiefs the resumes. He would filter them for conservative 
credentials before they were reviewed.
    He referred to one of the attorneys in the appellate 
section as, ``A Democrat in hiding.'' Who is, ``Not going to 
hide in my appellate section,'' and was resultantly 
transferred.
    On another case, unsettling discrepancies in the resume of 
an applicant were overlooked because the resume showed 
membership in the Federalist Society and the Republican 
National Lawyers Association. That lawyer lasted less than a 
year before having to be warned that poor performance was going 
to require removal.
    And ultimately, that predecessor of yours was described by 
the Inspector General as having made false statements to 
Congress. So it was about as rancid a place as you could 
imagine back then.
    You have come in. The I.G. has taken a second look. The 
I.G. has found no evidence of biased enforcement of voting 
rights laws, politically based hiring, or politicized FOIA 
responses. Reviewed the decisions of the division and section 
leadership, and particularly in controversial cases, and said 
that it,

          ``Did not substantiate claims of political or racial 
        bias, reviewed thousands of internal Civil Rights 
        Division documents that did not reveal that the Civil 
        Rights Division staff allowed political or ideological 
        bias to influence the hiring decisions.''

    That is quite a turn around.
    How did you pull that off? It is so important for the 
people of the United States to have confidence that the 
Department of Justice is not affected by that kind of partisan 
poison that you inherited. And you seem to have solved that 
problem.
    Mr. Perez. Senator, when I entered the Department of 
Justice first time, Ronald Reagan was President and Attorney 
General Meese was in charge. That was 1985 or 1986.
    When I entered as a career person in 1989, President George 
Herbert Walker Bush was in charge, and John Dunn was the 
Assistant Attorney General.
    I am just as proud of the work I did under the Republican 
administrations as I was in the Democratic administrations. 
There are time-honored traditions, as you well know having 
worked at the Department, of nonpartisan leadership. Of making 
sure that everybody's voice is heard. Of making sure that 
hiring is career-driven and merit-based. I learned those 
lessons from Republicans and Democrats. I had the privilege of 
implementing those lessons.
    So, when I came back, I had a clear direction and sense of 
where we needed to go, and I believe that we have gone in that 
direction.
    Senator Whitehouse. Well, congratulations. I think that is 
impressive management and leadership in difficult 
circumstances.
    The other point I would want to make, there has been a 
suggestion made that you overlooked a case called the Newell 
case and refused to support it, and might have cost the U.S. 
taxpayer as much as $200 million in making that decision.
    You responded by saying that the expert on that type of 
matter in the Department actually reviewed that particular 
case, and I think your language was that he had an immediate 
and visceral reaction. That it was not a winning case.
    My understanding is that his language was, ``This case 
sucks.''
    Mr. Perez. My 10-year-old is here, so I attempted to use 
different language, Senator.
    [Laughter.]
    Mr. Whitehouse. Sorry, to be a bad influence.
    Mr. Perez. That's the first time he's heard that word, 
Senator.
    [Laughter.]
    Mr. Whitehouse. I'm sure. I'm sure. So that was the 
professional judgment of the experts in the Department.
    And do we not know, in fact, what the outcome of the case 
was? Did it not go forward just without the Department of 
Justice? And was the result in that case not one that 
vindicated that lawyer's judgment? In fact, it was a loss for 
the plaintiff?
    Mr. Perez. That is correct, sir. And it's my understanding 
that the relater has filed other cases and all of those cases 
have been dismissed as well.
    Senator Whitehouse. And so it was a lost case. It wasn't 
going to raise $200 million for the Government, was it?
    Mr. Perez. Right. As I said in my testimony, the value of a 
lost case is zero.
    Senator Whitehouse. Is zero.
    Thank you.
    The Chairman. Thank you, Senator.
    And now, to the longest serving member of this committee, 
and former chairman of this committee, Senator Hatch.

                       Statement of Senator Hatch

    Senator Hatch. Thank you.
    Mr. Perez. Good morning, Senator.
    Senator Hatch. Good morning.
    Mr. Perez. It's an honor to see you again.
    Senator Hatch. It's an honor to see you again.
    Mr. Perez on April 10, Darrell Issa, Chairman of the House 
Oversight and Government Reform Committee, sent you a subpoena 
for all of your personal e-mails related to official business. 
As of today's deadline, I have been informed, he has not yet 
received those subpoenaed documents from you.
    So he has asked me, to ask you, will you commit to 
producing all those responsible documents to the House 
Oversight Committee's subpoena?
    Mr. Perez. Senator, we received a subpoena last Wednesday, 
which was, frankly, surprising because we've been cooperative 
in connection with the case from the outset.
    I went and spent a day with the House Oversight Committee. 
I was, on July 26, in a hearing last year available to testify. 
The Department's provided over 1,400 documents and----
    Senator Hatch. OK. Where are those, is what I'm asking----
    Mr. Perez [continuing]. So we were, frankly, surprised to 
receive it, but nonetheless, we provided, what I think, a 
responsive letter yesterday and it's my understanding that 
people came over to the Department to review documents.
    Senator Hatch. OK. I wasn't aware of that, no.
    In Hosanna-Tabor v. EEOC, the Supreme Court unanimously 
held that the First Amendment protects churches or religious 
organizations from lawsuits over the hiring or firing of their 
ministers.
    Now, this is the so-called ministerial exception. I am the 
author of the Religious Freedom Restoration Act, so I naturally 
take an interest in these things.
    This is the so-called ministerial exception that had been 
recognized by Federal appeals courts for more than 40 years. In 
that case, you signed onto a brief opposing any such 
constitutional protection. Essentially, had your argument won 
the day, the Federal courts would be able to interfere with 
churches' decisions about choosing or retaining their own 
ministers.
    The Supreme Court not only unanimously rejected your 
position, but called it ``untenable.'' The Court said that your 
position was, ``Hard to square with the text of the First 
Amendment itself, which gives special solicit to the rights of 
religious organizations.''
    The Court further stated that it could not, ``Accept the 
remarkable view that the religion clauses had nothing to say 
about a religious organization's freedom to select its own 
ministers.''
    Now, several things trouble me about your position in this 
case, including what appears to be your view that a statute can 
trump or neutralize the Constitution. In this case, that title 
VII trumps the First Amendment. Now, I would have thought it 
obvious that statutes must conform to the Constitution, not the 
other way around.
    Now, why did the Department of Justice take such an extreme 
position in the Hosanna-Tabor case? And do you still believe 
that the Government should be able to sue churches over their 
hiring and firing decisions with regard to clergy?
    Mr. Perez. Senator, first of all, thank you for your 
leadership not only on the Religious Freedom Restoration Act, 
but on RLUIPA. I know you and Senator Kennedy were 
indispensable in that----
    Senator Hatch. From both----
    Mr. Perez [continuing]. And I'm proud to report that we 
continue to give that law full force and effect.
    The brief that I believe you're talking about, which was 
filed by the Solicitor General's Office, I think the 
Government, as I recall, acknowledged that the hiring 
exemptions that religious organizations enjoyed for decades, it 
acknowledged that those hiring exemptions exist. It didn't 
seek, as I understand it, to manifest hostility to the rights 
of churches or other religious organizations to select their 
ministers. And, of course, the decision of the Supreme Court is 
the law of the land, and we would, of course, abide by that and 
move forward.
    Senator Hatch. Thank you so much.
    Mr. Chairman, I will finish with that.
    The Chairman. Thank you, Senator Hatch.
    Senator Hatch. Thank you.
    The Chairman. Now, we will turn to Senator Murray.

                      Statement of Senator Murray

    Senator Murray. I will be short as well.
    Mr. Perez, thank you. Very good to see you here today.
    Mr. Perez. Good to see you again, Senator.
    Senator Murray. I just quickly want to say, I have reviewed 
all of your incredible public services. You have a very 
amazing, impressive, wide range of experience that you are 
bringing from a number of different agencies. And you are 
something of a turn-around expert for public sector agencies. 
So let me just thank you for that.
    I just have one question in the short amount of time we 
have, and as a member of the Veteran's Committee, past chair of 
that, I have worked very hard to make sure our country steps up 
to meet the needs of our service members and veterans, who 
sacrifice so much on behalf of all of us.
    The Civil Rights Division plays an especially valuable and, 
frankly, very little-known role in ensuring that critical 
protections, voting rights, employment rights under the SERA 
Act, housing and mortgage protection, as you mentioned a moment 
ago, just to name a few.
    Can you share quickly with this committee what steps you 
took to improve the enforcement of those protections, and how 
you will address the needs of service members in your new 
position?
    Mr. Perez. Thank you, Senator. One of my real points of 
pride here in the Civil Rights Division is what we have been 
able to do on behalf of service members. When people are 
overseas defending our Nation, they need to know that we have 
their back at home.
    And one of the biggest areas where we dramatically stepped 
up our activities was in the enforcement of the Servicemembers 
Civil Relief Act. There were service members overseas, as I 
mentioned earlier, who were having their homes foreclosed on at 
home and that's unacceptable. It was illegal and they were 
having their cars repossessed illegally. They were being 
charged interest above the statutory rate, a law that this 
Congress passed. So, we've recovered something like $50 million 
and counting on behalf of service members.
    This was a program that was largely moribund when we 
arrived. There had been, I think, one case totaling $8,000 on 
behalf of a service member. And now, we've been able to provide 
that relief.
    Senator Murray. I really appreciate all your focus and 
attention on that.
    Mr. Perez. Thank you. We went out and visited people. We 
went on the base in Tacoma and visited there. We were in Fort 
Campbell, KY and elsewhere, and we listened and learned, and 
that's why we did so much more work in the voting context, 
making sure that the vote of a service member can be counted.
    Then finally in the employment area, if a Guardsman gets 
deployed and then loses their job at home, that's unacceptable. 
The prior administration had done very good work in that area, 
we continued that work and we've been able to increase it by 
about 40-45 percent, because you shouldn't have to lose your 
job if you get deployed. The law says that that's illegal.
    And if confirmed, we will continue these partnerships 
because we need to work with our vets. We need to make sure 
that they have pathways to opportunity. We need to work with 
States so that if a veteran is an EMT working in a warzone and 
comes home, that there aren't licensing barriers to that vet 
becoming an EMT at home. There's so much that we can do. 
There's so much that we are doing, but I think there's even 
more that we can do.
    Senator Murray. Well, I will look forward to a conversation 
with you about that. It is a passion of mine, but it is a real 
need for this country. And certainly, our Department of Labor 
really needs to focus on that. So I appreciate your work.
    Mr. Perez. Thank you for your leadership on that.
    The Chairman. Thank you, Senator Murray.
    And now, Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Mr. Chairman.
    And welcome, Mr. Perez.
    Mr. Perez. Good morning, Senator. I saw you at the 
Greensboro opening.
    Senator Hagan. I was going to say back in 2010 for the 
opening----
    Mr. Perez. Yes.
    Senator Hagan [continuing]. Of the Civil Rights Museum, the 
Woolworth's where the Greensboro Four sat at the lunch counter.
    Mr. Perez. A very memorable day.
    Senator Hagan. As I recall, it was a freezing, freezing 
February; one cold 7 a.m. morning.
    Mr. Perez. For a Buffalo guy, it felt pretty balmy.
    Senator Hagan. It was cold.
    [Laughter.]
    I wanted to ask some questions about the fiduciary rule, 
and I know you have probably heard this already today. But I 
have really heard serious concerns from a wide range of 
stakeholders about this issue, and I share the Department of 
Labor's goal of protecting consumers.
    I am also concerned that the rule that was drafted in 2010 
would harm constituents in my State who are trying to save for 
retirement. In fact, one study concluded that the Department of 
Labor's proposed regulation would cause hundreds of thousands 
of fewer IRA's to be opened annually.
    And I believe it is important to ensure that the Department 
of Labor studies this potential impact and takes this analysis 
into account when the rule is reproposed.
    If you are confirmed, do you pledge to monitor the 
development of this rule to ensure that it does not require--
doesn't result in increased costs for particularly the low- and 
the moderate-income accountholders? And what steps will you 
take to ensure that the rule does not result in reduced access 
to the education or fewer retirement investment options for 
Americans?
    Mr. Perez. Senator, you have my commitment that, if 
confirmed, I will be actively and immediately listening and 
learning from all of the Senators and other stakeholders from 
whom I've heard feedback.
    I've heard, as I mentioned earlier, I think, to Senator 
Isakson, I've heard concerns from Republican and Democratic 
Senators in the course of my visits. And part of the reason I 
wanted to visit with people is to listen and learn about things 
that are on your mind.
    I look forward, if confirmed, to continuing that dialog, 
except taking a much deeper dive.
    Senator Hagan. Because I really do think it will have a 
negative impact on the low- and moderate-income saver who is 
really trying to do the right thing and save for their 
retirement.
    The SEC has also been working on its own fiduciary standard 
for broker-dealers for several years. And the Commission's goal 
has been to ensure that investors, particularly retail 
investors, are appropriately protected and have access to the 
types of investor-
focused advice that they need.
    As Labor Secretary overseeing the Department's fiduciary 
rulemaking, would you agree that the goal of investor 
protection, or agree with that goal of investor protection and 
access to advice?
    Mr. Perez. Sure. We always want to make sure that we have 
investor protection. We want to make sure we have retirement 
security for everybody. I think there are a lot of shared 
goals.
    We also want to make sure that the doctrine of unintended 
consequences is something that we keep in mind, and we want to 
figure out how we can balance all of the competing 
considerations. And I look forward, if confirmed, to working on 
that with you.
    Senator Hagan. That doctrine of unintended consequences, I 
think, plays part in this because although the SEC and the DOL 
rules would apply to investors with separate objectives, I 
really am concerned that they will create confusion or even 
contradictory directives for investors. So I do appreciate 
that.
    Then one other question on workforce training, getting 
Americans and North Carolinians back to work is certainly a top 
priority for me. I know the U.S. unemployment rate is about 
7.6. In my State, it is much higher than that. It is 9.4, and 
in some areas and my county, it is 17-18 percent.
    At the same time, the Bureau of Labor Statistics reported 
recently that there are close to 4 million job openings in the 
United States. I know that manufacturing companies can't fill 
as many as 600,000 skilled positions.
    There is, to me, a huge mismatch of the skill sets that are 
necessary today to do these jobs that are available.
    What steps will you take to increase communication and 
collaboration between the Department of Labor, business 
leaders, community organizations, and educators to really try 
to help connect our unemployed Americans with these available 
job opportunities that we know are out there?
    Mr. Perez. Senator, I believe that the Department of Labor 
can be the quarterback in a fully integrated and agile 
workforce system that's demand-driven, responsive to the needs 
of employers, and works collaboratively with workers and other 
stakeholders to make sure that they have access to those jobs, 
and that the gaps that you described are addressed.
    And there's a program--the North Carolina Back-to-Work 
Program is a partnership between your community college system 
and the North Carolina Department of Commerce. It's a really 
good example of a program that, among other things, addresses 
the needs of the long-term unemployed. And I look forward to 
learning more about it.
    Senator Hagan. I look forward to working with you, and I 
have another bill, a bipartisan bill, the America Works Act, 
that I think can really concentrate on helping develop these 
skill sets for the jobs that are available.
    Mr. Perez. Thank you.
    Senator Hagan. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Now, we will turn to Senator Casey, who chairs the 
Employment and Workplace Safety Subcommittee.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you very much.
    I am sorry I was late today. We had one of those mornings 
where we were doing a lot of juggling, so.
    Mr. Perez. You've had a number of them.
    Senator Casey. Tom, I missed your opening statement and 
some of the questions, so I apologize for that.
    No. 1, thanks for your commitment to public service. It's 
been extraordinary over a lot of years; we don't need to 
recount the years. You know them.
    Mr. Perez. I had hair when I started.
    [Laughter.]
    Senator Casey. I had more then, too, when you started.
    Mr. Perez. I figured we could relate.
    Senator Casey. But just one question in light of the, I 
know we are constrained by a vote and the time.
    Initially, we spoke of earlier when we sat down in my 
office recently on Job Corps, which is, most people know, but 
if they don't, a great program over generations, has been in 
place. Students who come to a facility in Pennsylvania, a site, 
one of four sites where they learn job skills, they overcome or 
surmount barriers in their way.
    Critically important program that, unfortunately, because 
the Department didn't budget very well and didn't watch the 
dollars in ways that, I think, taxpayers should have an 
expectation that they would. They had to, the Department, as 
you know, had to cutback and freeze enrollments, affected 
thousands of students across the country and, unfortunately, is 
going to lead to some bad results where folks who won't get on 
the right track. So a program that needs tremendous reform, the 
commitment of your time and effort.
    And I would ask you to make a commitment today to work very 
hard, upon confirmation, to right the ship. To put in place the 
kind of controls that any organization, public or private, 
would have by use of, what I would call, old-kind-of-
comptroller practices. Budgeting and being able to budget 
month-to-month and be able to project over time the spending.
    So I would ask you for that commitment and your efforts to 
rectify this.
    Mr. Perez. You have my absolute commitment in that regard, 
Senator. We have to do better. We can do better. We will do 
better. And I know there are a lot of dedicated people at the 
Department right now already working on this.
    You have my full commitment that, if confirmed, this will 
be a top priority.
    Senator Casey. And as you know, and the chairman gave us 
the opportunity to have a hearing in our subcommittee, Senator 
Isakson and I and others who joined in, and spent a lot of time 
trying to push the Department to get this right.
    We have high expectations and I think they are consistent 
with the expectation of taxpayers, but also what we should all 
hope for those students.
    Mr. Perez. Absolutely.
    Mr. Casey. Thanks very much.
    Mr. Perez. Thank you for your time. It's good to have two 
former Jesuit volunteers in the room, as well.
    Senator Casey. That's right.
    Mr. Perez. My wife is here.
    Senator Casey. Thank you.
    The Chairman. Look out for the Jesuits. Anyway, I can say 
it because I have been in Catholic schools all of my life. I 
always say I was very fortunate. I never had Jesuit teachers.
    [Laughter.]
    That's an inside joke.
    Mr. Perez. Right. I should note for the record that my 
wife's uncle is a Jesuit.
    The Chairman. Oh, well.
    Mr. Perez. He teaches at the University of Detroit Mercy.
    The Chairman. Oh, well. They're great people, those 
Jesuits.
    Mr. Perez. Yes.
    [Laughter.]
    The Chairman. All right.
    Mr. Casey. Mr. Chairman, thank you for that.
    The Chairman. We will be holding an executive session next 
Thursday to consider Mr. Perez's nomination. In order to 
maintain that timetable, I ask that Senators submit any written 
questions by 5 p.m. on Friday, tomorrow.
    The hearing record will remain open for statements for 10 
days.
    The Chairman. Mr. Perez, thank you for your forthrightness. 
Thanks too, again, for all of your public service and your 
willingness to take on this job.
    I can just say that in closing that Amalia, and Susana, and 
Rafael have been so good and so attentive, they deserve the 
best lunch.
    [Laughter.]
    Mr. Perez. All right. Absolutely.
    The Chairman. Senator Alexander.
    Senator Alexander. There are still some outstanding 
requests for information which we need to have in, in order to 
complete the process for the committee. So I would urge you to 
do that as quickly as possible.
    Mr. Perez. We certainly look forward to working with you on 
any requests for information, sir. Thank you for your courtesy.
    The Chairman. Thank you very much. The hearing is 
adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                           Letters of Support

            [Globe Newswire, March 13, 2013--Press Release]

   The United States Hispanic Chamber of Commerce Commends President 
  Obama's Choice of Thomas Perez as Secretary of Labor--GlobeNewswire
    Washington, DC--The United States Hispanic Chamber of Commerce 
(USHCC) applauds President Obama's appointment of prominent civil 
rights lawyer, Thomas Perez, as the new Secretary of Labor. Pending 
Senate confirmation, Perez is set to replace outgoing Labor Secretary, 
Hilda Solis.
    Perez is a Harvard-educated attorney whose career has been 
dedicated to worker and civil rights advocacy at the Federal, State and 
local levels. He was appointed Assistant Attorney General at the Civil 
Rights Division at the U.S. Department of Justice in 2009. Prior to 
that, he was secretary for Maryland's Department of Labor, Licensing 
and Regulation. Perez also served 12 years prosecuting civil cases as 
Deputy Assistant Attorney General in the Clinton administration.
    USHCC President & CEO Javier Palomarez said,

          ``Thomas Perez's admirable civil service career protecting 
        the rights of the American people is praiseworthy. His story as 
        a first-generation American sheds light on the incredible 
        contributions the children of our Nation's immigrants offer to 
        our country every day. His track record has proven that he is a 
        tireless champion for the American worker and I am certain he 
        will continue his outstanding service to our country as the 
        next Secretary of Labor.''

    Foreign-born workers make up over 16 percent of the Nation's 
civilian labor force. Immigrant entrepreneurs own 11 percent of all 
U.S. firms, employing 1 out of every 10 American workers and generating 
over $775 billion in annual revenue.

          ``I am confident Thomas Perez will be a leading voice not 
        only for our Nation's workers, but also for America's immigrant 
        entrepreneurs. He is a committed civil and labor rights 
        champion that sees the limitless value immigration reform will 
        bring to our economy--that is precisely the kind of leader we 
        need at the Department of Labor. The USHCC looks forward to 
        working with Mr. Perez once he assumes his new role''--said 
        USHCC Chairman of the Board Marc Rodriguez.
                            about the ushcc
    Founded in 1979, the USHCC actively promotes the economic growth 
and development of Hispanic entrepreneurs and represents the interests 
of over 3 million Hispanic-owned businesses across the United States 
that contribute in excess of $465 billion to the American economy each 
year. It also serves as the umbrella organization for more than 200 
local Hispanic chambers and business associations in the United States 
and Puerto Rico. Follow us on Twitter @USHCC.
    Contact: Valentina Pereda, USHCC Communications Manager, 202-735-
772, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8bfdfbeef9eeefeacbfef8e3e8e8a5e8e4e6a5">[email&#160;protected]</a>

                 [NCLR, March 12, 2013--Press Release]

    Washington, DC--NCLR (National Council of La Raza) announced today 
its support for Thomas E. Perez, Assistant Attorney General for the 
Civil Rights Division at the U.S. Department of Justice, who is being 
considered by President Obama for Secretary of Labor, a vacancy left by 
former Secretary Hilda Solis. NCLR is encouraged by this potential 
appointment and urges the President to strongly consider Mr. Perez and 
other highly qualified Hispanics for cabinet positions. If nominated, 
Perez would be the only Latino in the President's second-term cabinet 
and the first Dominican American ever to serve in a presidential 
cabinet.
    Janet Murguia, NCLR President and CEO said,

          ``Thomas Perez is an eminently qualified public servant who 
        has the professional experience and compelling personal story 
        to serve at the highest levels of the administration. Mr. 
        Perez's impeccable legal background in civil rights issues, 
        particularly workers' rights, as well as his decades of service 
        as an elected and appointed official make him uniquely prepared 
        to address the policy complexities and management 
        responsibilities at the Department of Labor.''

    Since his appointment in 2009, Perez has steered the Civil Rights 
Division to prioritize the full enforcement of critical civil rights 
statutes such as the National Voting Rights Act, Title IX, the 
Americans with Disabilities Act and the Fair Housing Act--all programs 
that have aided the Latino community tremendously. He also helped build 
agreement among stakeholders to settle three of the largest lending 
cases in the Fair Housing Act's history, securing more money for 
victims of discriminatory lending practices than had been secured by 
the Federal Government in the previous 23 years combined. During his 
tenure, the Civil Rights Division also championed the defense of 
military families and victims of hate crimes.
    Murguia added,

          ``We are pleased to see the president once again strongly 
        considering the nomination of a Latino candidate for this 
        crucial position in his administration. We fully believe that 
        Mr. Perez has the outstanding leadership and acumen to serve as 
        Secretary of Labor. We hope that President Obama will continue 
        to add diversity to his cabinet and consider qualified Latinos 
        for additional cabinet positions as well as other senior-level 
        Presidential appointments.''

    NCLR--the largest national Hispanic civil rights and advocacy 
organization in the United States--works to improve opportunities for 
Hispanic Americans. For more information on NCLR, please visit 
www.nclr.org or follow along on Facebook and Twitter.
    Contact: Julian Teixeira, (202) 776-1812, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f79d83929e8f929e8596b799949b85d9988590d9">[email&#160;protected]</a>
 Joint Statement From State Attorneys General in Support of Nomination 
 of Tom Perez as Secretary of U.S. Department of Labor--March 19, 2013

          Tom Perez is a brilliant lawyer and leader, who listens 
        thoughtfully to all sides and works collaboratively to solve 
        problems. He has dedicated his career to serving the public, 
        and his experience as Secretary of the Maryland Department of 
        Labor, Licensing and Regulation and in the U.S. Department of 
        Justice make him ideally suited to serve as the Secretary of 
        the U.S. Department of Labor.
          As State Attorneys General, we have found Perez to be open, 
        responsive and fundamentally fair. He is committed to justice 
        and the rule of law and able to work across party and 
        philosophical lines to achieve just results.
          The U.S. Department of Labor and the country will be well 
        served by a leader who understands the need to forge 
        partnerships with State and local officials and who values 
        cooperation to bring about successful results for both 
        employers and employees.
          The following Attorneys General issued this joint statement 
        in support of Perez's nomination:
          California Attorney General Kamala Harris, Delaware Attorney 
        General Beau Biden, Illinois Attorney General Lisa Madigan, 
        Iowa Attorney General Tom Miller, Mississippi Attorney General 
        Jim Hood, North Carolina Attorney General Roy Cooper, Oregon 
        Attorney General Ellen Rosenblum, Tennessee Attorney General 
        Robert Cooper, Jr., Former Utah Attorney General Mark Shurtleff 
        and Former Washington Attorney General Rob McKenna.

  [National Hispanic Leadership Agenda, March 12, 2013--Press Release]

      Impending Nomination of Thomas Perez As Secretary of Labor 
     Welcomed by National Latino Leaders, Swift Confirmation Urged
as assistant attorney general, perez leads the civil rights division as 
 a pragmatic consensus builder, defender of america's mast vulnerable 
                              populations
    Washington, DC--In response to reports that the Department of 
Justice's Assistant Attorney General Thomas Perez may be nominated by 
President Barack Obama to be the Secretary of Labor, the National 
Hispanic Leadership Agenda (NHLA) issued the following statement 
strongly supporting the nomination. NHLA is a coalition of 30 of the 
Nation's leading Hispanic organizations and has been active in calling 
for the inclusion of Latino appointees in the Cabinet and in positions 
across the Federal Government.
    Hector E. Sanchez, Chair of NHLA and executive director of LCLAA, 
stated:

          ``Thomas Perez has distinguished himself as a pragmatic 
        problem solver with an extensive record of defending our 
        country's most vulnerable communities. He would make an 
        outstanding Labor Secretary and we urge the Senate, when his 
        nomination is received, to promptly confirm him.
          ``Perez's impressive career of public service spans the 
        local, State, and Federal levels. In all of the prestigious 
        positions he has held, which include the Secretary of 
        Maryland's Department of Labor, Montgomery County Council 
        Member, Director of the Office for Civil Rights at the U.S. 
        Department of Health and Human Services, Deputy Assistant 
        Attorney General for Civil Rights, and Special Counsel to the 
        late Senator Edward Kennedy, Perez worked with both business 
        and labor, Republicans and Democrats, to achieve results in 
        advancing the civil rights of vulnerable populations. His track 
        record of effective governing will serve him, and our Nation, 
        well as Labor Secretary.
          ``His accomplishments in leading the Department of Justice's 
        Civil Rights Division include settling several of the largest 
        fair-lending cases in the department's history, securing the 
        largest-ever disability-based housing discrimination 
        settlement, and successfully reaching a settlement to prevent 
        discrimination in school enrollment and student discipline.
          ``As Assistant Attorney General, Perez has become known for 
        building consensus on issues from supporting military families 
        and defending the disabled to prosecuting hate crimes and 
        protecting voting rights.''

    NHLA's advocacy work in calling for the increased representation of 
Latinos in the Federal Government stems from the fact that while 
Latinos are nearly 17 percent of the U.S. population, they are just 8 
percent of the Federal career workforce and as little as 3 percent of 
the employees in some Federal agencies (per the U.S. Office of 
Personnel Management's Eleventh Annual Report on Hispanic Employment in 
the Federal Government). NHLA's preliminary analysis of the nearly 
4,000 political positions listed in the 2012 Plum Book suggests Latinos 
may be as little as 7 percent of the current Presidential appointees.
    Over the past several months, NHLA has urged the President to 
appoint Latinos to at least three of his 22 Cabinet-level positions in 
order to more fairly align with the community's proportion of the 
population. The President's remaining Cabinet-level vacancies left to 
be named include the positions of the Secretary for the Department of 
Commerce, Secretary of the Department of Transportation; the United 
States Trade Representative; and the Small Business Administrator.
    Established in 1991, The National Hispanic Leadership Agenda (NHLA) 
brings together Hispanic leaders to establish policy priorities that 
address, and raise public awareness of the major issues affecting the 
Latino community and the Nation as a whole. For mare information, 
please visit www.nationalhispanicleadership.org.
    For more information, contact: Estuardo Rodriguez at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f3968087869281979cb3819291969d94819c8683dd909c9e">[email&#160;protected]</a>, (202) 631-2892.
                                 ______
                                 
        National Association of Latino Elected and 
                       Appointed Officials (NALEO),
                                     Los Angeles, CA 90015,
                                                    March 14, 2013.
The Honorable Barack Obama,
President of the United States,
The White House,
1600 Pennsylvania Ave., NW,
Washington, DC 20500.

    Dear President Obama: On behalf of the National Association of 
Latino Elected and Appointed Officials (NALEO), I write to urge you to 
nominate Assistant Attorney General for the Civil Rights Division 
Thomas E. Perez to the position of Secretary of Labor. Mr. Perez is a 
highly experienced administrator and public servant who we believe is 
well-prepared to be an active, engaged Secretary from his first day on 
the job.
    The next Secretary of Labor must possess intimate knowledge of the 
challenges facing both workers and employers in today's marketplace, 
and must be skilled at building consensus between constituencies that 
approach labor issues from different perspectives. Mr. Perez has the 
diverse experience and leadership skills needed to master the unique 
demands of this post. While engaging with community-based organizations 
that serve laborers, chairing the Federal interagency Worker 
Exploitation Task Force, and serving as Secretary of the Maryland 
Department of Labor, Licensing, and Regulations. Mr. Perez amassed an 
impressive record safeguarding workers, promoting economic development, 
providing a safety net and cultivating a thriving workforce in the 
State of Maryland. A lifelong public servant, Mr. Perez has worked 
successfully with everyone from citizen-constituents, in his role as a 
Council member and president of the Montgomery County Council, to those 
in the highest levels of Federal Government, as a key official at the 
Department of Justice. An alumnus of the Department of Health and Human 
Services and a former professor at the George Washington University 
School of Public Health, he is also knowledgeable about the conditions 
and services that workers need to stay healthy and productive.
    Mr. Perez's track record of achievements demonstrates his success 
in unifying stakeholders around common goals that move our country 
forward. As a litigator at the Department of Justice, for example, Mr. 
Perez coordinated the successful prosecution of some of the 
Department's most high profile civil rights cases, including a Texas 
hate crimes case involving a group of white supremacists who went on a 
deadly, racially motivated crime spree. As a top State official, he was 
a principal architect of a sweeping package of State lending and 
foreclosure reforms that ameliorated the foreclosure crisis in 
Maryland. Under his leadership, the Civil rights Division has 
strengthened the Nation's Democratic process by protecting the right to 
vote of all eligible individuals, handling more voting rights matters 
than at any time in the past 35 years.

   [Hispanic National Bar Association, March 18, 2013--For Immediate 
                                Release]

     HNBA Congratulates & Supports Thomas Perez on His Nomination 
                         as Secretary of Labor
    Washington, DC--The Hispanic National Bar Association (HNBA), the 
national association of Latino attorneys, judges, law professors and 
law students, congratulates and supports Thomas Perez on his nomination 
by President Obama to be Secretary of the U.S. Department of Labor. 
Perez currently serves as the Assistant Attorney General for the Civil 
Rights Division of the U.S. Department of Justice. In that capacity, he 
has focused on upholding the civil and constitutional rights of all 
Americans. He previously served as the Secretary of Maryland's 
Department of Labor, Licensing and Regulation. From 2002 until 2006, he 
was a member of the Montgomery County Council in Maryland. He was the 
first Latino ever elected to the Council, and served as Council 
President in 2005. Earlier in his career, he spent 12 years in Federal 
public service, most of them as a career attorney with the Civil Rights 
Division. Perez was a law professor for 6 years at the University of 
Maryland School of Law and was a part-time professor at the George 
Washington School of Public Health. He received a Bachelor's degree 
from Brown University, a Master's of Public Policy from the John F. 
Kennedy School of Government and a Juris Doctorate from Harvard Law 
School.
    HNBA National President Peter M. Reyes, Jr. said,

          ``The HNBA salutes Thomas Perez as he reaches a new height in 
        his legal career. His years of dedicated, productive service 
        have set a high standard in the legal profession. As the son of 
        immigrants from the Dominican Republic, his parents taught him 
        the importance of education, hard work and public service. 
        Perez became the first lawyer in his family and has continued 
        his family's tradition of service. The HNBA strongly supports 
        the timely Senate confirmation of the highly qualified Thomas 
        Perez as our next Secretary of Labor.''
About the Hispanic National Bar Association
    The Hispanic National Bar Association (HNBA) is an incorporated, 
not-for-profit, national membership organization that represents the 
interests of the more than 100,000 Hispanic attorneys, judges, law 
professors, legal assistants, and law students in the United States and 
its territories. From the days of its founding four decades ago, the 
HNBA has acted as a force for positive change within the legal 
profession. It does so by encouraging Latino students to choose a 
career in the law and by prompting their advancement within the 
profession once they graduate and start practicing. Through a 
combination of issue advocacy, programmatic activities, networking 
events and educational conferences, the HNBA has helped generations of 
lawyers succeed.
    Contact: Antonio ``Tony'' Arocho, Esq.; E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c2a3a3b0ada1aaad82aaaca0a3eca1adaf">[email&#160;protected]</a>; 
Phone: (202) 223-4777.

         [National Gay and Lesbian Task Force, March 18, 2013]

    Task Force Executive Director Rea Carey said today,

          ``Thomas Perez is a terrific choice for labor secretary. He 
        has a proven track record of support for workers and those who 
        have faced discrimination. A champion of civil rights, he 
        represented the administration and testified before the U.S. 
        Senate in 2009 in support of the Employment Non-Discrimination 
        Act, a bill that would protect employees on the basis of sexual 
        orientation and gender identity. As head of the Civil Rights 
        Division at the Justice Department, he challenged State voter 
        suppression efforts and pursued a record number of 
        discrimination or brutality claims against local law 
        enforcement agencies, including the very visible Trayvon Martin 
        racial profiling case.
          ``The Labor Department is critical to advancing, enforcing 
        and preserving policies that directly impact the lives and 
        livelihoods of lesbian, gay, bisexual and transgender people 
        and our families. It has made significant policy advances over 
        the past few years in this regard. These advances include 
        adding gender identity as a protected category to the 
        department's equal employment statement, and clarifying that 
        the Family and Medical Leave Act is inclusive of same-sex 
        couples raising children.
          Thomas Perez at the helm of the Labor Department will help 
        keep this momentum moving forward. We urge the Senate to 
        confirm him.''

       [League of United Latin American Citizens, March 18, 2013]

   LULAC Praises President Obama's Nomination of Thomas Edward Perez 
                         for Secretary of Labor

    Washington, DC--Today, President Obama nominated Thomas Edward 
Perez for the position of Secretary of Labor, which would make him one 
of the top ranking Latinos to serve in President Obama's 
administration. If confirmed Mr. Perez will replace Secretary Solis as 
the next Labor Secretary.
    Currently, Mr. Perez is the Assistant Attorney General for the 
Civil Rights Division of the U.S. Department of Justice and has been 
successful in defending against draconian voter ID laws. He has 
spearheaded 17 probes of police and sheriffs departments for civil 
rights violations, the most in the Department's 54-year history.
    LULAC National President Margaret Moran said,

          ``LULAC has worked closely with the civil rights office and 
        knows the caliber of person that the President has tapped as 
        his next Secretary of Labor. Both Mr. Perez's professional 
        background, which includes a diverse knowledge for the 
        different branches of government, and his passionate work on 
        behalf of the oppressed, make him the most qualified person to 
        serve as Secretary of Labor.''

    Those close to Mr. Perez describe him as a dedicated public 
servant. LULAC hopes his confirmation proceeds without partisan delay.
    LULAC looks forward to continuing its work with the Civil Rights 
Office in ensuring voter rights laws protect the minority communities 
and knows that with Mr. Perez heading the Department of Labor we will 
have an advocate fighting on behalf of labor issues that impact our 
community.
    LULAC National President Margaret Moran and LULAC Executive 
Director Brent Wilkes were invited guests for the White House official 
announcement.
    Contact: Paloma Zuleta, 202-833-6130, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8bdbd1fee7eeffeacbc7dec7cac8a5">[email&#160;protected]</a> org.
                                 ______
                                 
     Mechanical Contractors Association of America 
                                            (MCAA),
                                            March 18, 2013.
President Barack Obama,
The White House,
1600 Pennsylvania Avenue, NW,
Washington, DC 20500.

Subject:  Strong Support for Nomination of Thomas E. Perez as Secretary 
        of Labor

    Dear Mr. President: The Mechanical Contractors Association of 
America (MCAA) commends you on your nomination of Thomas E. Perez to 
become the Secretary of Labor, and offers its strong support for timely 
Senate confirmation of that appointment.
    MCAA, along with our affiliate association, the Mechanical 
Contractors Association of Maryland (MCA--MD), commend you on this 
impeccable choice of an accomplished public servant with a broad record 
of solid achievement to lead in policy development and Labor Department 
administration, which is of crucial importance to the construction 
industry in dealing with a host of issues and challenges stemming from 
the eventual market rebound from the prolonged recession, adverse 
workforce demographic trends, and immigration policy and workforce 
standards policies as well.
    MCAA also will offer strong support for the nomination of Mr. Perez 
in the Senate confirmation process. It is our view that Mr. Perez is 
uniquely qualified to deftly reconcile the many cross currents 
developing in upcoming policy choices relating to immigration reform, 
ongoing enforcement programs relating to the prevalent abuses of 
workforce misclassification in the construction industry and others, 
and existing and new programs to provide equal employment opportunity 
and affirmative action for underutilized minority, women, veteran and 
disabled veteran workers in the domestic labor force.
            Sincerely,
                                             John McNerney,
                                              General Counsel MCAA.
                                 ______
                                 

            [Asian American Justice Center, March 18, 2013]

                     AAJC Applauds Perez Nomination
             obama nominates tom perez for labor secretary
    Washington, DC--Today the Asian American Justice Center (AAJC) 
welcomed President Obama's nomination of Tom Perez, Assistant Attorney 
General for the Justice Department's Civil Rights Division, to serve as 
his next Labor Secretary.
    Mee Moua, AAJC president and executive director said,

          ``Even before his appointment as Assistant Attorney General 
        for the Civil Rights Division in October 2009, Perez has long 
        been supportive of issues important to the Asian American and 
        Pacific Islander communities. He has worked with AAJC--and all 
        the members of Asian American Center for Advancing Justice--on 
        immigration, hate crimes, language access, voting rights and 
        other key issues.''

    Moua added, noting that Perez was the keynote speaker at the 
inaugural Advancing Justice Conference in 2009,

    ``Tom Perez will be an outstanding Secretary of Labor, and we 
expect that he will be a powerful leader concerned about the well-being 
of Asian American workers, employers, and business owners as he carries 
out his duties. We thank President Obama for putting forward a civil-
rights champion such as Tom and urge the Senate to confirm him 
swiftly.''
                                 ______
                                 
                      Maryland Chamber of Commerce,
                                            March 15, 2013.
The Honorable Barack Obama,
President of the United States,
The White House,
Washington, DC 20500.

    Dear President Obama: The Maryland Chamber of Commerce supports the 
nomination of Thomas E. Perez to serve as the U.S. Secretary of Labor.
    During his tenure as Secretary of Maryland's Department of Labor, 
Licensing and Regulation, Mr. Perez oversaw a wide range of regulatory 
programs of critical importance to the State's business community, 
including unemployment insurance, the regulation of financial 
institutions, worker safety and professional licensing.
    Mr. Perez proved himself to be a pragmatic public official who was 
willing to bring differing voices together. The Maryland Chamber had 
the opportunity to work with Mr. Perez on an array of issues of 
importance to employers in Maryland, from unemployment and workforce 
development to the housing and foreclosure crisis.
    Despite differences of opinion, Mr. Perez was always willing to 
allow all parties to be heard and we found him to be fair and 
collaborative. I believe that our experiences with him here in Maryland 
bode well for the Nation.
    The Maryland Chamber of Commerce is Maryland's leading statewide 
business advocacy organization. Our 800 member companies employ more 
than 442,000 people in the State. The Chamber works to support its 
members and advance the State of Maryland as a national and global 
competitive leader in economic growth and private sector job creation 
through its effective advocacy, high level networking and timely 
communications.
            Sincerely,
                                   Kathleen T. Snyder, CCE,
                                                     President/CEO,
                                      Maryland Chamber of Commerce.

       Greater Prince George's Business Roundtable,
                                           Bowie, MD 20720,
                                                    March 18, 2013.

    To Whom It May Concern: Tom Perez is one of the most honest and 
dedicated public officials that we in the Prince George's County 
business community have ever worked with. His understanding that 
government must work in partnership with business to find solutions 
that succeed in today's marketplace highlights his continual 
accessibility and his empathic approach to working with job creators 
nationwide.
    We applaud the President's nomination of Tom Perez as Secretary of 
Labor because we have experienced, first hand, the fruits of Tom's open 
door policy and his steady approach to finding solutions that work for 
the benefit of all.
            Sincerely,
                                           M.H. Jim Estepp,
                                                 President and CEO.

                      The Leadership Conference on 
                            Civil and Human Rights,
                                      Washington, DC 20006,
                                                    April 11, 2013.

Re: Thomas Perez Deserves Swift Confirmation as Secretary of the U.S. 
        Department of Labor

    Dear Senator: On behalf of the undersigned 82 organizations, we 
write to urge swift confirmation of Thomas Perez as the next Secretary 
of the U.S. Department of Labor. Mr. Perez has shown a commitment to 
advancing opportunity for all Americans, and his outstanding career in 
public service makes him well-qualified to ensure the well-being of our 
Nation's workforce as the next Secretary of Labor.
    We believe the next Secretary of Labor must ensure the voices of 
working families are heard and can bring the perspective, values, and 
needs of employees, and job seekers to policymaking. Based on his 
distinguished career, there is no doubt that as Labor Secretary Mr. 
Perez will promote the welfare of wage earners, job seekers, and 
retirees; improve working conditions and workplace safety; advance 
opportunities for employment; and assure work-related benefits and 
rights.
    As the Assistant Attorney General for the Department of Justice's 
Civil Rights Division, Mr. Perez helped build consensus with 
stakeholders to uphold the civil and constitutional rights of all 
Americans, particularly some of the most vulnerable members of our 
society. Mr. Perez stepped up enforcement of human trafficking laws and 
efforts to ensure that veterans can keep their civilian jobs while 
serving in the military. He has also been a tireless champion of voting 
rights, disability rights, equal educational equity, and has prosecuted 
some of the most heinous hate crimes in recent memory.
    Before his nomination to lead the Civil Rights Division, Mr. Perez 
was Secretary of Maryland's Department of Labor, where he collaborated 
with businesses and employees to address critical workforce development 
needs and continue to build a world-class workforce. Throughout his 
public service career, Mr. Perez has also prosecuted high profile civil 
rights cases, was a director of the Office for Civil Rights at the U.S. 
Department of Health and Human Services, was Special Counsel to the 
late Senator Edward Kennedy, where he was Senator Kennedy's principal 
adviser on civil rights, criminal justice, and constitutional issues, 
and also served as a local elected official on the Montgomery County 
Council in Maryland.
    Thomas Perez's outstanding career in public service makes him 
eminently qualified to be the next Secretary of Labor and take on the 
important responsibility of ensuring the well-being of our Nation's 
wage earners, job seekers, and retirees. For these reasons, we urge you 
to move forward without delay on the confirmation of Thomas Perez. For 
further information, please contact Lexer Quamie at (202) 466-3311 or 
e-mail <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="017074606c686441626877686d7368666975722f6e73662f">[email&#160;protected]</a>

            Sincerely,

Advancement Project; AFL-CIO; African American Ministers In Action 
    (AAMIA); Alliance for Justice; American Association for Justice; 
    American Association of People with Disabilities (AAPD); American 
    Federation of State, County and Municipal Employees (AFSCME), AFL-
    CIO; American Federation of Teachers, AFL-CIO; American-Arab Anti-
    Discrimination Committee (ADC); Asian & Pacific Islander American 
    Health Forum; Asian American Justice Center, member of Asian 
    American Center for Advancing Justice; Asian American Legal Defense 
    and Education Fund; Asian Law Caucus, member of Asian American 
    Center for Advancing Justice; Asian Pacific American Labor Alliance 
    and Institute for Asian Pacific American Leadership & Advancement; 
    Asian Pacific American Legal Center, a member of the Asian American 
    Center for Advancing Justice; Bazelon Center for Mental Health Law; 
    Center for Community Change; Children's Defense Fund; 
    Communications Workers of America; Community Action Partnership; 
    Demos; Disability Rights Education & Defense Fund; Equal Justice 
    Society; Fair Elections Legal Network; FairVote; Family Equality 
    Council; Farmworker Justice; Freedom to Work; Gay, Lesbian & 
    Straight Education Network (GLSEN); Hispanic Federation; Human 
    Rights Campaign; Immigration Equality; International Union, United 
    Automobile, Aerospace and Agricultural Implement Workers of 
    America, UAW; Japanese American Citizens League; LatinoJustice 
    PRLDEF; Lawyers' Committee for Civil Rights Under Law; The 
    Leadership Conference on Civil and Human Rights; League of United 
    Latin American Citizens; MALDEF; NAACP; NAACP Legal Defense & 
    Educational Fund, Inc.; National Abortion Federation; National 
    Association of Human Rights Workers (NAHRW); National Association 
    of Latino Elected and Appointed Officials (NALEO); National 
    Association of Social Workers; National Black Justice Coalition; 
    National Center for Lesbian Rights; National Coalition for Asian 
    Pacific American Community Development (National CAPACD); National 
    Community Reinvestment Coalition; National Conference of Black 
    Mayors, Inc.; National Congress of American Indians; National 
    Council of Jewish Women; National Council of La Raza (NCLR); 
    National Council on Independent Living; National Disability Rights 
    Network; National Education Association; National Employment Law 
    Project; National Fair Housing Alliance; National Gay and Lesbian 
    Task Force Action Fund; National Health Law Program; National 
    Hispanic Media Coalition (NHMC); National Immigration Law Center; 
    National Korean American Service & Education Consortium; National 
    Legal Aid and Defender Association; National Organization for 
    Women; National Partnership for Women & Families; National Senior 
    Citizens Law Center; National Women's Law Center; NILC Immigrant 
    Justice Fund; People For the American Way; PolicyLink; Poverty and 
    Race Research Action Council; Progressive National Baptist 
    Convention, Inc.; Public Advocates Inc.; Service Employees 
    International Union (SEIU); Sikh American Legal Defense and 
    Education Fund (SALDEF); The Sikh Coalition; South Asian Americans 
    Leading Together (SAALT); Southeast Asia Resource Action Center 
    (SEARAC); Southern Poverty Law Center; United Food and Commercial 
    Workers International Union; United Steelworkers.

  Maryland Minority Contractors Association (MMCA),
                                       Baltimore, MD 21218,
                                                    March 21, 2013.
President Barack Obama,
The White House,
1600 Pennsylvania Avenue, NW,
Washington, DC 20500.

    Dear President Obama: The Maryland Minority Contractors Association 
applauds the nomination of Tom Perez as the U.S. Secretary of Labor, 
and encourages a quick confirmation. While serving as Maryland's labor 
secretary, Tom proved to be fair-minded, and always had an open door.
    The Maryland Minority Contractors Association is composed primarily 
of merit shops, so our member companies have employees that are not 
under union collective bargaining agreements. We found ourselves at the 
table with Tom on a range of issues, from workplace safety to 
apprenticeships to the proper classification of employees. Although our 
perspectives often differed, we always had a seat at the table, and I 
can confidently say that our perspective was always taken into 
consideration. Tom pursues his role of protecting workers with vigor, 
but he always took the concerns of our members seriously, and, when 
presented with sound arguments, was willing to compromise.
    We strongly support the nomination of Tom Perez and we believe that 
he will make an excellent Secretary of Labor. He is a smart, honest 
person who will serve our county well.

                                       Pless B. Jones, Sr.,
                                                         President.
                                 ______
                                 

                    [Baltimore, MD, March 12, 2013]

    The Greater Baltimore Committee strongly supports the nomination of 
Tom Perez to serve as U.S. Secretary of Labor.
    Mr. Perez left his position as Secretary of Maryland's Department 
of Labor, Licensing and Regulation, with a reputation for collaboration 
and a willingness to work closely with the State's business community. 
During his tenure here, he consistently demonstrated an understanding 
of the need to bring all parties together to work on issues that would 
impact Maryland's economic climate.
    Donald C. Fry, President and CEO of the Greater Baltimore Committee 
said,

          ``The Greater Baltimore Committee had the opportunity to work 
        with Mr. Perez when he served in Maryland, and our members were 
        impressed with his open-minded approach to developing and 
        implementing policies that impact a wide array of stakeholders. 
        I have no doubt that his reputation as a pragmatic public 
        servant will follow him to the U.S. Department of Labor.''

    The Greater Baltimore Committee is a regional membership 
organization of more than 500 businesses, nonprofit organizations, and 
educational and civic institutions located in the Baltimore 
Metropolitan Area. The GBC's mission is to improve the business climate 
of the Baltimore region by organizing its corporate and civic 
leadership to develop solutions to the problems that affect the 
region's competitiveness and viability.

            [University System of Maryland, March 19, 2013]

USM Community Applauds President Obama's Nomination of Thomas E. Perez 
                       as U.S. Secretary of Labor
     Adelphi, MD--University System of Maryland (USM) Chancellor 
William E. Kirwan and the USM community applaud President Barack 
Obama's nomination of Thomas E. Perez as U.S. Secretary of Labor.
    During his tenure as Maryland Secretary of Labor, Licensing and 
Regulation, Perez worked closely with the State's higher education 
community on several issues. He promoted partnerships between the 
private sector, nonprofit organizations, government agencies, and 
education to support job training and youth work programs.
    In addition, he successfully led the department's effort to bring 
Maryland's adult education programs into its portfolio. With pragmatism 
and consensus building, Perez guided the alignment of adult education 
with workforce development so that individuals who earned a GED would 
be better positioned to find jobs more suited to their skills.
    Perez focused much of his distinguished career in Maryland on 
improving individuals' preparation for and access to career 
opportunities. For example, he worked diligently to expand courses in 
English as a second language for the State's growing immigrant 
population.
    Prior to serving as Maryland's Secretary of Labor, Licensing and 
Regulation (2007-9), Perez was on the School of Law (now the Francis 
King Carey School of Law) faculty at the University of Maryland, 
Baltimore, a USM institution.
    Chancellor Kirwan said,

          ``Thomas Perez has devoted his professional life to making a 
        difference. He is always willing to hear and consider different 
        points of view and is unfailingly fair and collaborative. 
        Clearly, his wealth of experience and commitment to building a 
        strong workforce would be invaluable assets to our country's 
        economic advancement.''

  [Maryland Association of Community Colleges (MACC), March 20, 2013--
                         For Immediate Release]

     Maryland's Community Colleges Applaud Nomination of Tom Perez
    Annapolis, MD--The Maryland Association of Community Colleges 
applauds President Obama's nomination of Tom Perez to be U.S. Labor 
Secretary.
    During his tenure as Secretary of the Maryland Department of Labor, 
Licensing and Regulation (DLLR), the Association worked closely with 
Mr. Perez as he spearheaded the transition of Maryland's adult 
education programs to the Department of Labor, an effort to create a 
seamless workforce development program for the State. Mr. Perez proved 
to be a tireless advocate for adult learners and for the programs that 
would better help those individuals begin, change or advance their 
careers.
    Dr. Guy Altieri, chair of the Maryland Council of Community College 
Presidents and president of Hagerstown Community College said,

          ``Mr. Perez recognized the important role that community 
        colleges play in the education of our State's workforce, and 
        was a tremendous partner at a time of rising unemployment and 
        increased need for community college services. At this time of 
        great transformation for our Nation's workforce, his vision 
        will serve workers, employers and our Nation well.''

    Mr. Perez served as Secretary of DLLR as the Nation's economy 
declined and unemployment rose dramatically. His efforts to better 
align adult education with the State's workforce development system 
demonstrated a clear understanding of the economic imperative of 
providing real opportunities for both workers entering the workforce, 
and those needing new skills in order to transition to new careers.
    Each year nearly 500,000 Marylanders attend one of Maryland's 16 
community colleges, in both credit programs, and continuing education 
and workforce development courses. Founded in 1992, the Maryland 
Association of Community Colleges represents all 16 of Maryland's 2-
year public higher education institutions. MACC is a voluntary, non-
profit organization governed by a 32-member board of directors composed 
of the president and one designated trustee from each member college. 
For more information about MACC and Maryland's community colleges, 
visit www.mdacc.org.
    For more information, contact: Dr. Bernard Sadusky, executive 
director, (410) 974-8117 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6f7e6c69787e66744d60696c6e6e23627f6a23">[email&#160;protected]</a>
            Statement of Richard Trumka, President, AFL-CIO
Re: Nomination of Thomas Perez for Labor Secretary

    Working men and women will be well-served by President Obama's 
choice of Tom Perez to lead the Department of Labor.
    Throughout his career, Perez has fought to level the playing field 
and create opportunities for working people, whether in the workplace, 
the marketplace or the voting booth. He has worked to eliminate 
discrimination in housing, provide access to education and health care, 
end hate crimes, crack down on employers who cheat workers out of wages 
and expand our democracy by protecting the fundamental right of every 
American to vote. In the 1990s, he worked on the front lines of the 
effort to pass comprehensive immigration reform under the leadership of 
the great Senator Ted Kennedy--a job that will serve him well in 
today's drive for commonsense immigration reform.
    At a time when our politics tilts so heavily toward corporations 
and the very wealthy, our country needs leaders like Tom Perez to 
champion the cause of ordinary working people. And working families 
need and deserve a strong advocate as their Secretary of Labor--one who 
will vigorously enforce job safety standards, wage laws, and anti-
discrimination rules, and who will speak out forcefully for working 
families and their workplace rights, including their right to join 
together to improve their lives and working conditions.
    President Obama has chosen such an advocate in Tom Perez, and we 
congratulate him on this nomination.
    Contact: Amaya Tune (202) 637-5018.

           [Disability Groups Sign-on Letter, March 15, 2013]

    Disability Organizations Praise Assistant Attorney General Perez
    In the 23 years since the passage of the ADA, the issue of 
enforcement of the disability community's civil rights law has long 
been a priority of the disability rights movement. In that time, few 
have played a greater role in advancing that cause than-Assistant 
Attorney General Tom Perez. During his time at the Civil Rights 
Division of the Department of Justice, Mr. Perez has been an 
extraordinary champion of the rights of people with disabilities and 
his important work has gone a long way toward ensuring that people with 
disabilities are afforded the same opportunities as others.
    Mr. Perez's enforcement of the Americans with Disabilities Act and 
the Supreme Court's Olmstead decision has brought opportunities to many 
thousands of people with disabilities to live in their own homes and 
communities, and to participate as full members of society. These 
efforts have fundamentally changed the lives of people with 
disabilities. The Justice Department's Olmstead enforcement efforts 
have resulted in a much-needed acceleration of efforts in a number of 
States to expand access to cost-effective community-based services and 
supports under the Medicaid program.
    Under Mr. Perez's leadership, the Justice Department also issued 
important regulations implementing the ADA--the first comprehensive 
update since the original regulations were promulgated in 1991--as well 
as four sets of proposed regulations implementing various aspects of 
the ADA. In addition, Mr. Perez's efforts to ensure people with 
disabilities have equal access to polling locations, along with his 
efforts to prevent States from instituting regressive voter laws, have 
expanded access to the vote for Americans with disabilities nationwide.
    Tom Perez has been one of the most important voices of our time for 
improving the lives of people with disabilities, and we are grateful 
for his leadership of the Civil Rights Division.

AAPD; Access Living; American Counseling Association; Autistic Self 
    Advocacy Network; Bazelon Center for Mental Health Law; National 
    Association of the Deaf; National Disability Rights Network; 
    National Federation of the Blind; TASH; Telecommunications for the 
    Deaf and Hard of Hearing, Inc.; The American Network of Community 
    Options and Resources (ANCOR); The Association of Programs for 
    Rural Independent Living (APRIL); The Center for Self-
    Determination; The Disability Rights Center; United Spinal 
    Association; USAction.
                                 ______
                                 
                    Whiteman, Osterman & Hanna LLP,
                                          Albany, NY 12260,
                                                    April 15, 2013.
Senator Thomas Harkin (D-IA),
731 Hart Senate Office Building,
Washington, DC 20510.

Senator Lamar Alexander (R-TN),
455 Dirksen Senate Office Building,
Washington, DC 20510.

Re: Thomas Perez, Nominee for Secretary of Labor

    Dear Senators Harkin and Alexander: I write as an appointee by 
former President George H.W. Bush to the U.S. Department of Justice in 
support of Thomas Perez who has been nominated by President Obama to 
serve as Secretary of Labor and urge your favorable consideration of 
his candidacy.
    As the Assistant Attorney General for Civil Rights (1990-93), I 
worked directly with Tom (in fact, I hired him in 1990) on a variety of 
sensitive matters, including criminal and voting rights issues. During 
a number of face-to-face meetings, I had the opportunity both to review 
his legal-based memoranda and to engage in a number of intense debates 
as to what should be the Division's final course of action. As a result 
of those experiences, I found Tom to be an excellent lawyer, a 
dedicated public servant with a deep commitment to the common good, and 
a person of legal and moral integrity; qualities that enable him to 
recognize the value of contending parties' positions in order to 
achieve workable solutions.
    I believe that he will bring those skills and strong personal 
qualities to the duties of the Secretary of Labor and enable him to 
perform in a manner worthy of your trust.
    Thank you for listening to my support for this very special and 
patriotic man.
            Respectfully yours,
                                             John R. Dunne.

  American Association of People with Disabilities 
                                            (AAPD),
                                      Washington, DC 20006,
                                                    April 12, 2013.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
731 Hart Senate Office Building,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Harkin and Ranking Member Alexander: On behalf of all 
the undersigned disability rights organizations, we write to urge you 
to vote to confirm Thomas Perez as the next Secretary of the U.S. 
Department of Labor. Mr. Perez is highly qualified to serve as 
Secretary of Labor, having a long record of working with employees, job 
seekers, and employers to promote greater employment opportunities for 
all Americans. In particular, his work to advance opportunities for 
people with disabilities gives us confidence that he will be an 
effective Labor Secretary.
    In the 23 years since the passage of the Americans with 
Disabilities Act, a top priority of the disability rights movement has 
been making sure that the law is properly enforced. In that time, few 
have played a greater role in advancing that cause than-Assistant 
Attorney General Tom Perez. During his time leading the Civil Rights 
Division of the Department of Justice, Mr. Perez has earned his 
reputation as an extraordinary champion of people with disabilities by 
enforcing the law to ensure that every American has an equal 
opportunity to succeed.
    The Supreme Court's Olmstead decision and Mr. Perez's enforcement 
of the Americans with Disabilities Act have created new opportunities 
for many thousands of people with disabilities to live in their own 
homes and communities. These efforts have fundamentally changed the 
lives of people with disabilities, allowing many to participate as full 
members of society for the first time.
    Under Mr. Perez's leadership, the Justice Department also issued 
important regulations implementing the ADA--the first comprehensive 
update since the original regulations were promulgated in 1991--as well 
as four sets of proposed regulations implementing various aspects of 
the ADA. In addition, Mr. Perez's efforts to ensure people with 
disabilities have equal access to polling locations, along with his 
efforts to prevent States from instituting regressive voter laws, have 
expanded access to the vote for Americans with disabilities nationwide.
    Tom Perez has been one of the most important leaders of our time 
for improving the lives of people with disabilities. We strongly 
support his swift confirmation as Secretary of Labor.
            Sincerely,

AAPD; Access Alaska; Access Living; Albany Advocacy Resource Center, 
    Inc. (ARC); American Counseling Association; American Speech-
    Language-Hearing Association (ASHA); American Therapeutic 
    Recreation Association; ANIL; Arc of the United States; Arizona 
    Bridge to Independent Living (ABIL); Association of Assistive 
    Technology Act Programs (ATAP); Association of People Supporting 
    Employment First (APSE); Association of Programs for Rural 
    Independent Living (APRIL); Association of University Centers on 
    Disabilities (AUCD); Bazelon Center for Mental Health Law; Brain 
    Injury Association of America; Brooklyn Center for Independence of 
    the Disabled (BCID); Brown, Goldstein & Levy, LLP; Californians for 
    Cures; Center for Independence of the Disabled of New York; 
    Connecting Arizona Advocates, Inc.; Council of Parent Attorneys and 
    Advocates, Inc. (COPAA); CTD/Coalition of Texans with Disabilities; 
    Disability Power & Pride; disABILITY Resource Center; Disability 
    Rights Education and Defense Fund; Disability Rights Legal Center; 
    Disability Rights NC; Easter Seals; Enable America; Epilepsy 
    Foundation; Epilepsy Foundation of Western Wisconsin; Equip for 
    Equality; Federal Employees with Disabilities; Freedom Center; 
    Illinois Iowa Center for Independent Living; IndependenceFirst; 
    Independent Living Center of the North Shore & Cape Ann, Inc.; 
    Inglis; Institute for Educational Leadership; Little People of 
    America; Maryland Disability Law Center; Mental Health America; 
    National Alliance on Mental Illness; National Association of 
    Councils on Developmental Disabilities; National Center for 
    Environmental Health Strategies; National Center for Learning 
    Disabilities; National Consumers League; National Council on 
    Independent Living; National Disability Rights Network; National 
    Down Syndrome Congress; National Federation of the Blind; National 
    Health Law Program; National Organization of Nurses with 
    Disabilities (NOND); Parent to Parent USA; People First of Ohio; 
    Prairie Independent Living Resource Center, Inc.; Services for 
    Independent Living, Inc. (SIL); Southeast Alaska Independent 
    Living; Southwest Center for Independent Living; Telecommunications 
    for the Deaf and Hard of Hearing, Inc.; The Advocacy Institute; 
    United Spinal Association; USAction; Virginia Association of 
    Centers for Independent Living.

                Ryman Hospitality Properties, Inc.,
                                       Nashville, TN 37214,
                                                    March 18, 2013.
Eric Schultz,
Associate Communications Director,
White House Office of Communications.

    Dear Associate Communications Director Schultz: As a Tennessee 
business leader please know that Tom Perez's leadership in Maryland has 
been tremendously helpful to our industry. As you may know our company 
has invested well over a billion dollars in Prince Georges County with 
Gaylord National Resort & Convention Center and he has been very 
supportive of our organization over the years. If he is confirmed, 
business will find a labor secretary with an open door and a 
willingness to find common ground and practical solutions. I appreciate 
any support you may be willing to extend on his behalf.
            Best regards,
                                             Colin V. Reed,
                                Chairman & Chief Executive Officer.

                [PR.com, April 10, 2013--Press Release]

     Enable America Supports Perez's Secretary of Labor Nomination
    Tampa, FL--With the U.S. Senate reconvening today following a 
spring recess, Enable America is urging Senators to proceed promptly 
and confirm the nomination of Thomas Perez as Secretary of the U.S. 
Department of Labor.
    Enable America Chairman Richard Salem said,

          ``Enable America strongly supports the nomination of Thomas 
        Perez to U.S. Secretary of Labor. Mr. Perez has a long and 
        proactive history working to promote the rights of people with 
        disabilities. Well-served.''

    The 51-year-old Perez is currently Assistant Attorney General for 
the Civil Rights Division in the U.S. Department of Justice. If 
confirmed, he will replace the outgoing Secretary Hilda Solis. Perez 
has a long career in public service. Prior to heading the Office of 
Civil Rights at the U.S. Department of Health and Human Services during 
President Clinton's administration, he was a Federal prosecutor in the 
Department of Justice. Later he served as Deputy Assistant Attorney 
General for Civil Rights under Attorney General Janet Reno. He was also 
Special Counsel to Senator Edward Kennedy, acting as the Senator's 
chief adviser on civil rights, criminal justice and constitutional 
issues.
    Most recently, in his role at the Justice Department, Perez has 
focused on regulations that expand the impact of the Americans with 
Disabilities Act.
    Enable America was founded in 2002 as an organization to improve 
employment opportunities for people with disabilities. Programs that 
include Career Mentoring Days, Job Seeker Workshops, VetConnect for 
Disabled Veterans and Wounded Warriors, Community Connections, and 
Business to Business Meetings all work to unite members of the 
disability and business communities, raising awareness and opening 
doors to employment for the more than 56 million Americans with life 
altering disabilities.
    Companies, agencies, organizations, and individuals who want to 
participate in Enable America programs can learn more at the 
organization's Web site, www.EnableAmerica.org.
                                 ______
                                 
   Washington Bureau--National Association for the 
             Advancement of Colored People (NAACP),
                                      Washington, DC 20005,
                                                    April 17, 2013.
Hon. Tom Harkin, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Lamar Alexander, Ranking Minority Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Re: NAACP Strong Support for the Confirmation of Tom Perez to be the 
        Next 
        Secretary of Labor

    Dear Chairman Harkin and Senator Alexander: On behalf of the NAACP, 
our Nation's oldest, largest and most widely recognized grassroots-
based civil rights organization, I strongly urge you to support the 
confirmation of Tom Perez to be the next U.S. Secretary of Labor. 
Throughout his career, Tom Perez has demonstrated that he has the 
talent, energy, knowledge, skills and experience to lead the U.S. 
Department of Labor in its important mission to protect and grow the 
middle class and to help all Americans obtain and retain decent jobs 
with adequate compensation.
    Assistant Attorney General Perez is well-known to and very well-
respected by the NAACP at the national level as well as within the 
State of Maryland. Throughout his career, first with the Department of 
Justice under Attorney General Janet Reno and as chair of the inter-
agency Worker Exploitation Task Force; and then as special counsel to 
Senator Kennedy (MA); followed by his work as the Department of Health 
and Human Services' Office for Civil Rights, Mr. Perez impressed us as 
a hard-working, intelligent man of conscience. Mr. Perez also did an 
exemplary job for the State of Maryland as her Secretary of Labor. In 
this capacity, he collaborated with businesses and employees to address 
critical workforce development needs and continue to build a world-
class workforce.
    In his capacity as Assistant Attorney General for Civil Rights, the 
NAACP has worked closely with Mr. Perez and we have been impressed by 
not only his passion for the protection of Americans' civil and human 
rights, but also with his ability to get real results. The Civil Rights 
Division has been extremely productive in the last few years. For 
example, the Division handled more new voting cases in 2012 than any 
prior year, including critical litigation to defend the 
constitutionality of the Voting Rights Act.
    Assistant Attorney General Perez also oversaw the successful 
implementation of the 2010 Shepard-Byrd Hate Crimes Prevention Act, 
landmark legislation that has transformed how the Federal Government 
investigates and prosecutes hate crimes.
    In addition to these milestones, Mr. Perez has also worked 
steadfastly and diligently within the Civil Rights Division to 
implement institutional reforms to restore the integrity of the 
Division's hiring practices, the vigor of the Division's enforcement 
efforts, and the morale of the Division's employees. As confirmed by a 
recent study released by the Department of Justice's Inspector General, 
merit and experience--not politics--are once again the basis for Civil 
Rights Division hiring decisions.
    Again, I urge you in the strongest terms possible to confirm Tom 
Perez as U.S. Secretary of Labor. The NAACP is excited about this 
nomination, as we have every confidence that Mr. Perez will do an 
outstanding job in protecting the rights of American workers which 
establishes internal reforms which will serve the Department of Labor, 
and the American people, well for decades in the future.
    Thank you in advance for your attention to the NAACP position. 
Should you have any questions or comments, please do not hesitate to 
contact me at my office at (202) 463-2940.
            Sincerely,
                                         Hilary O. Shelton,
                               Director, NAACP Washington Bureau & 
                     Senior Vice President for Advocacy and Policy.

                       National Women's Law Center,
                                      Washington, DC 20036,
                                                    April 17, 2013.
Senator Tom Harkin, Chairman,
Senator Lamar Alexander, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Re: Nomination of Thomas E. Perez to be Secretary of the U.S. 
        Department of Labor

    Dear Senators Harkin and Alexander: On behalf of the National 
Women's Law Center (the ``Center''), an organization that has worked 
since 1972 to advance and protect women's legal rights, we write in 
strong support of the nomination of Thomas E. Perez to be Secretary of 
the U.S. Department of Labor.
    The Department of Labor serves a critical role in ensuring 
opportunities for women in the workplace. It enforces the Federal 
guarantee that workers can take job-protected family and medical leave, 
wage and hour protections that protect workers from exploitation and 
abuse, and rules requiring Federal contractors to advance equal 
opportunity in their workforces, including equal pay, among other 
crucial protections. It also houses the Women's Bureau, whose mission 
is to improve the status and working conditions for wage-earning women. 
The next Secretary of the Department of Labor will have the opportunity 
to continue the important progress toward fairer workplaces for women, 
and for all workers, that has been made during Secretary Solis' tenure.
    Mr. Perez, who currently serves as the Assistant Attorney General 
for Civil Rights in the Department of Justice, has demonstrated such a 
commitment throughout his career. Under his leadership, the Civil 
Rights Division has reinvigorated enforcement of Federal laws against 
discrimination. Among other things, it has litigated groundbreaking 
title IX sexual harassment complaints against public schools, colleges, 
and universities; challenged discriminatory barriers for women working 
in nontraditional fields in State and local government, investigated 
sex discrimination by law enforcement agencies; brought numerous cases 
to enforce the Fair Housing Act's prohibition of sex discrimination; 
and protected women's ability to obtain essential health care without 
physical harm, harassment or intimidation under the Freedom of Access 
to Clinic Entrances Act.
    Before becoming Assistant Attorney General for Civil Rights, Mr. 
Perez served as Secretary of the Maryland Department of Labor, 
Licensing, and Regulation (DLLR), experience that would be highly 
relevant to the position to which he has been nominated. In his 
capacity as Secretary of DLLR, Mr. Perez has supported implementing the 
recommendations of the Maryland Equal Pay Commission, which helped ease 
the passage of a pay disparity data bill in 2008; this paved the way 
for the passage of the Lilly Ledbetter Civil Rights Restoration Act on 
April 14, 2009 (mirroring the Federal Lilly Ledbetter Fair Pay Act). 
Moreover, he supervised an agency of 1,700 employees and managed a $170 
million budget.
    The rest of Mr. Perez's 20-year career in public service similarly 
demonstrates a commitment to civil rights and to enforcing legal 
protections upon which women, and all Americans, rely. He worked as a 
career prosecutor in the Civil Rights Division of the Department of 
Justice, was promoted to be Deputy Chief of the Criminal Section, and 
was later appointed Deputy Attorney General for Civil Rights. He served 
as Senator Edward Kennedy's Special Counsel on the Senate Judiciary 
Committee, acting as the Senator's principal adviser on civil rights. 
From February 1999 until the end of the Clinton administration, Mr. 
Perez served as Director of the Office for Civil Rights at the U.S. 
Department of Health and Human Services (HHS), where he advised the HHS 
Secretary on a number of civil rights issues, including discrimination 
in welfare-to-work programs based on race, disability, and national 
origin. Following his service in the Federal Government, Mr. Perez 
taught at the University of Maryland School of Law for 6 years as a 
clinical law professor and served on the Montgomery County, MD, County 
Council.
    Throughout his career, Mr. Perez has worked to protect and further 
legal rights and protections crucial to the women of this country. Mr. 
Perez has the experience and the commitment to enforcing the Federal 
laws upon which women, and all workers, rely, and is well-positioned to 
continue the important work of the Department of Labor. Consequently, 
the Center offers its strong support of Thomas E. Perez to be the 
Secretary of the Department of Labor, and urges you to support his 
nomination. If you have questions or if we can be of assistance, please 
contact us at (202) 588-5180.
            Sincerely,
                                       Nancy Duff Campbell,
                                                      Co-President,
                                     Marcia D. Greenberger,
                                                      Co-President.

    [Whereupon, at 12:15 p.m., the hearing was adjourned.]

                                   [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
